Appendix

TABLE OF APPENDICES
Appendix A
Opinion & Orders, United States Court of
Appeals for the District of Columbia Circuit,
Al Bahlul v. United States, No. 19-1076 ............... 1a
Appendix B
Opinion, United States Court of Military
Commission Review, United States v.
Al Bahlul, No. 16-002 (Mar. 21, 2019) ................ 42a
Appendix C
Designated Convening Authorities for
Military Commissions (2006 – present) .............. 87a
Appendix D
Robert M. Gates, Memorandum,
Designation of Convening Authority for
Military Commissions (Feb. 7, 2007) .................. 90a
Appendix E
United States v. Al Bahlul, No. 040003,
Approval of Charges and Referral
(Jun. 28, 2004) ...................................................... 91a
Appendix F
Military Commission Order No. 1
(Jun. 3, 2009) ........................................................ 92a
Appendix G
Relevant Constitutional, Statutory, and
Regulatory Provisions .......................................... 97a

1a
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
———————
No. 19-1076
———————
ALI HAMZA AHMAD SULIMAN AL BAHLUL,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
———————
On Petition for Review from the United States Court
of Military Commission Review
———————
OPINION
———————
August 4, 2020
———————
MICHEL PARADIS, Washington, DC, Counsel, Office of
the Chief Defense Counsel, argued the cause for
petitioner. With him on the briefs were MARY
MCCORMICK, TIMOTHY MCCORMICK, and TODD E.
PIERCE.
ERIC S. MONTALVO, Washington, DC, was on the
brief for amici curiae The Anti-Torture Initiative of
the Center for Human Rights & Humanitarian Law
at American University Washington College of Law in
support of petitioner.

2a
JOSEPH PALMER, Washington, DC, Attorney,
argued the cause for respondent. With him on the
brief were STEVEN M. DUNNE, Chief, and DANIELLE S.
TARIN, Attorney.
———————
Before GRIFFITH and RAO, Circuit Judges, and
EDWARDS, Senior Circuit Judge.
RAO, Circuit Judge.
Ali Hamza Ahmad Suliman Al Bahlul was Osama
bin Laden’s head of propaganda at the time of the
September 11 attacks. After he was captured in
Pakistan, Al Bahlul was tried and convicted by a
military commission in Guantanamo Bay. Our court
subsequently vacated two of his three convictions on
ex post facto grounds and remanded his case back to
the military courts, where his life sentence was
reaffirmed. In this most recent appeal, Al Bahlul
raises six different statutory and constitutional
challenges to his sentence and detention, including
three challenges to the appointment of the officer who
convened the military commission under the Military
Commissions Act of 2006. Only one argument has
merit: In reaffirming Al Bahlul’s life sentence, the
Court of Military Commission Review failed to apply
the correct harmless error standard, so we reverse
and remand for the court to reassess the sentence.
Each of Al Bahlul’s remaining arguments lacks merit
for the reasons explained below.
I.
Al Bahlul is a Yemeni national who travelled to
Afghanistan in the late 1990s to join Al Qaeda. Once
there, Al Bahlul pledged an oath of loyalty to Osama
bin Laden, underwent military training, and

3a
eventually led Al Qaeda’s propaganda efforts. Most
notably, he created a video for bin Laden in the
aftermath of the U.S.S. Cole bombing that celebrated
the terrorist attack on an American destroyer and
called for jihad against the United States. Al Bahlul
also served as bin Laden’s personal assistant and
secretary for public relations. Just before the attacks
of September 11, 2001, Al Bahlul arranged loyalty
oaths for two of the hijackers. In the immediate
aftermath, he operated the radio used by bin Laden to
follow media coverage of the attacks.
Weeks after the September 11 attacks, Al Bahlul
fled to Pakistan, where he was captured in December
2001 and turned over to the United States. He was
transferred in 2002 to the United States Naval
Station at Guantanamo Bay, Cuba, where he has
since been detained. This is Al Bahlul’s second direct
appeal challenging his prosecution under the military
commission system established by Congress in the
Military Commissions Act of 2006 (“2006 MCA”), Pub.
L. No. 109-366, 120 Stat. 2600.1 In previous opinions,
we have provided a detailed account of his legal
actions, so we provide only a brief summary here. See
Al Bahlul v. United States (Al Bahlul I), 767 F.3d 1,
Congress amended the 2006 MCA three years later. See
National Defense Authorization Act for Fiscal Year 2010, Pub.
L. No. 111-84, §§ 1801–07, 123 Stat. 2190, 2574–2614 (2009)
(“Military Commissions Act of 2009”). Al Bahlul’s trial was
conducted under the original 2006 MCA. While the statute was
for the most part “left ... substantively unaltered as relevant” to
Al Bahlul’s prosecution, Al Bahlul v. United States (Al Bahlul I),
767 F.3d 1, 6 n.1 (D.C. Cir. 2014), we note explicitly throughout
this opinion when citing provisions of the 2006 MCA that were
later changed.

1

4a
5–8 (D.C. Cir. 2014) (en banc); Al Bahlul v. United
States (Al Bahlul III), 840 F.3d 757, 758 (D.C. Cir.
2016) (per curiam).
Al Bahlul was tried by a military commission
convened pursuant to the 2006 MCA. Section 948h of
the 2006 MCA provides that “[m]ilitary commissions
... may be convened by the Secretary of Defense or by
any officer or official of the United States designated
by the Secretary for that purpose.” 10 U.S.C. § 948h.
In a number of provisions, the 2006 MCA refers to the
person designated under Section 948h as “the
convening authority.” See, e.g., 10 U.S.C. §§ 950b,
950f(c). The 2006 MCA also vests the Convening
Authority with significant powers and responsibilities
other than convening military commissions. Both the
government and Al Bahlul agree that the Convening
Authority has the responsibilities of a constitutional
“Officer[ ] of the United States” under the
Appointments Clause, U.S. CONST. art. II, § 2, cl. 2,
but they disagree about whether the Convening
Authority is properly considered a principal or
inferior officer. The Convening Authority’s final
decision to “approve, disapprove, commute, or
suspend [a] sentence” is reviewed by the Court of
Military Commission Review (“CMCR”), although the
2006 MCA provides for review “only with respect to
matters of law.” 10 U.S.C. §§ 950b(c)(2)(C), 950f(d)
(2006).
In 2007, the Secretary of Defense designated
Susan Crawford as the Convening Authority. Prior to
her designation, Crawford was already serving as a
Senior Judge of the Court of Appeals for the Armed

5a
Forces (“CAAF”)2 as well as an employee serving a
three-year term in the Senior Executive Service.
Crawford convened a commission to try Al Bahlul of
three substantive offenses enumerated in the 2006
MCA: conspiracy to commit war crimes, providing
material support for terrorism, and soliciting others
to commit war crimes. See id. §§ 950u, 950v(b)(25),
950v(b)(28) (2006). The three charges were predicated
on largely the same conduct. Al Bahlul refused to
participate in the proceedings and instructed his
appointed defense counsel to waive objections and to
abstain from any motions. Al Bahlul, however,
admitted every factual allegation against him but
one—an allegation that he once used a suicide belt.
Nonetheless, he pleaded not guilty on the grounds
that American tribunals lack the authority to try him.
The commission convicted Al Bahlul on all three
counts and sentenced him to life in prison. Crawford
approved the conviction, and the CMCR affirmed. See
United States v. Al Bahlul, 820 F. Supp. 2d 1141
(CMCR 2011). A panel of this court then vacated all
three convictions on the grounds that the 2006 MCA
did not authorize prosecutions based on conduct
occurring before 2006 unless the conduct was already
prohibited as a war crime and triable by military
commission. See Al Bahlul v. United States, No. 111324, 2013 WL 297726 (D.C. Cir. Jan. 25, 2013).
Sitting en banc, this court upheld Al Bahlul’s
conviction for conspiracy while vacating the two
remaining convictions. See Al Bahlul I, 767 F.3d 1.
CAAF reviews the military’s intermediate courts. It is the
military’s highest appellate court.

2

6a
Because Al Bahlul raised no objections at trial, we
reviewed his newly raised constitutional objections
only for plain error. See id. at 8–11. We held that Al
Bahlul’s ex post facto challenge to his conspiracy
conviction failed under the plain error standard on
two grounds: First, “the conduct for which he was
convicted was already criminalized under 18 U.S.C. §
2332(b),” which punishes conspiracies to kill United
States nationals; second, “it is not ‘plain’ that
conspiracy was not already triable by law-of-war
military commission.” Id. at 18. After vacating the
remaining two convictions under the Ex Post Facto
Clause,3 id. at 27–31, the court ordered the case to be
remanded, “after panel consideration, ... to the CMCR
to determine the effect, if any, of the two vacaturs on
sentencing.” Id. at 31.4
On remand to the CMCR, Al Bahlul argued for the
first time that Crawford’s appointment as Convening
Authority was unlawful, both on statutory and
constitutional grounds. He also argued that
intervening Supreme Court precedent required de
We “assume[d] without deciding that the Ex Post Facto Clause
applies at Guantanamo” based on the government’s concession.
Al Bahlul I, 767 F.3d at 18. In so doing, we emphasized that we
were “not to be understood as remotely intimating in any degree
an opinion on the question” of the Clause’s extraterritorial
application. Id. (quoting Petite v. United States, 361 U.S. 529,
531 (1960) (per curiam)).
4 After Al Bahlul I, a panel of this court again vacated the
conspiracy conviction, this time concluding Al Bahlul had raised
meritorious structural separation of powers objections that could
not be forfeited below. See Al Bahlul v. United States (Al Bahlul
II), 792 F.3d 1 (D.C. Cir. 2015). The court once again took Al
Bahlul’s case en banc, reinstated the conspiracy conviction, and
remanded the case to the CMCR. See Al Bahlul III, 840 F.3d 757.
3

7a
novo review of his ex post facto challenge to the
conspiracy conviction. Without remanding to the
military commission, the CMCR rejected these
arguments on the merits and determined that a life
sentence continued to be appropriate, reasoning that
the military commission would have imposed the
same sentence even if Al Bahlul had been convicted
only of conspiracy. See Al Bahlul v. United States, 374
F. Supp. 3d 1250 (CMCR 2019). Al Bahlul appealed to
this court, and we have exclusive jurisdiction under
10 U.S.C. § 950g.
Al Bahlul raises six discrete arguments on appeal.
First, he argues that the CMCR applied the wrong
harmless error standard in reviewing his sentence on
remand by failing to determine beyond a reasonable
doubt that the military commission would have
imposed the same sentence absent the two convictions
vacated by Al Bahlul I. Second, he claims that
Crawford’s appointment as the Convening Authority
violated the 2006 MCA, which in his view permits the
Secretary to designate only individuals who are
already officers of the United States at the time of the
designation. Third, he argues that Crawford’s
appointment violated the Appointments Clause of the
Constitution because the Convening Authority acts as
a principal officer who must be appointed by the
President with Senate approval. Fourth, even if the
Convening Authority is an inferior officer, Al Bahlul
contends that Crawford’s appointment violated the
Appointments Clause because Congress did not vest
the appointment of the Convening Authority in the
Secretary by law. Fifth, Al Bahlul argues that recent
Supreme Court precedent requires us to reexamine

8a
his ex post facto challenge to his conspiracy
conviction, this time de novo. Sixth and finally, he
raises several challenges to the conditions of his
ongoing confinement—namely, that he has allegedly
been subjected to indefinite solitary confinement and
denied eligibility for parole.
For the reasons discussed below, only Al Bahlul’s
first argument has merit. In reevaluating Al Bahlul’s
sentence, the CMCR should have asked whether it
was beyond a reasonable doubt that the military
commission would have imposed the same sentence
for conspiracy alone. We reject Al Bahlul’s remaining
arguments. Crawford’s appointment as the
Convening Authority was lawful, there is no reason to
unsettle Al Bahlul I’s ex post facto ruling, and we lack
jurisdiction in an appeal from the CMCR to entertain
challenges to the conditions of Al Bahlul’s ongoing
confinement. We therefore affirm in part, reverse in
part, and dismiss Al Bahlul’s petition in part for lack
of jurisdiction. We remand for reconsideration of the
sentence under the correct standard.
II.
We start with Al Bahlul’s sole meritorious claim.
Al Bahlul argues that the CMCR erred by reassessing
his sentence without remand to the military
commission and, further, by misapplying the
harmless error doctrine in maintaining his life
sentence. In Al Bahlul I, the en banc court directed
the CMCR to “determine the effect, if any, of the two”
vacated convictions on Al Bahlul’s sentence. 767 F.3d
at 31. While we conclude that the CMCR had the
discretion to reassess the sentence without
remanding to the military commission, we agree that

9a
the CMCR erred by reaffirming Al Bahlul’s life
sentence without first determining that the
constitutional errors were harmless beyond a
reasonable doubt.
As an initial matter, the CMCR correctly
determined that it had the authority to assess Al
Bahlul’s sentence without remand. In the analogous
court-martial context governed by the Uniform Code
of Military Justice (“UCMJ”), intermediate military
appellate courts may in some circumstances revise
sentences without remand to the court-marital. See
Jackson v. Taylor, 353 U.S. 569, 579–80 (1957). In
United States v. Winckelmann, CAAF held that
intermediate military courts should consider four
factors in determining whether to reassess a sentence
without remand: (1) whether the defendant was tried
by military judges; (2) whether there are “dramatic
changes” in the penalty the defendant is exposed to;
(3) whether “the nature of the remaining offenses
capture the gravamen of criminal conduct included
within the original offenses”; and (4) whether “the
remaining offenses are of the type that judges of the
courts of criminal appeals should have the experience
and familiarity with to reliably determine what
sentence would have been imposed at trial.” 73 M.J.
11, 15–16 (CAAF 2013).
In light of the parallels in text and structure, we
have previously relied on the UCMJ to inform our
interpretation of the statutes governing military
commissions. See In re Al Nashiri, 835 F.3d 110, 122–
23 (D.C. Cir. 2016). Here, we conclude that the CMCR
did not err when it applied the Winckelmann factors
in concluding it was appropriate to evaluate the

10a
sentence without remanding to a military
commission. In the court-martial context, a military
court has discretion under Winckelmann to
reevaluate a sentence without remand, and we have
held that the military should not be held to higher
procedural standards in the context of military
commissions than it would in the court-martial
context. Id. To the contrary, if a “procedure for courtsmartial is considered adequate to protect defendants’
rights, the same should be true of the review
procedure for military commissions.” Id. at 123.
Whether to remand for reconsideration of a
sentence is left to the military court’s discretion, so we
review the CMCR’s decision only for abuse of
discretion. See Winckelmann, 73 M.J. at 12. The
CMCR properly applied the Winckelmann factors,
and it was not an abuse of discretion to reevaluate Al
Bahlul’s sentence without remand to the military
commission. After we vacated two of his convictions,
Al Bahlul remained subject to the same maximum
sentence—life in prison—and the one remaining
conviction for conspiracy was predicated on the same
conduct as the two that were vacated. Moreover, as
the CMCR noted, “conspiracy to commit murder is not
so novel a crime that” the intermediate court would
be “unable to ‘reliably determine what sentence would
have been imposed at trial’” with respect to Al
Bahlul’s similar crime of conspiracy to commit war
crimes, including the murder of noncombatants. Al
Bahlul, 374 F. Supp. 3d at 1273 (quoting
Winckelmann, 73 M.J. at 16).
In reevaluating Al Bahlul’s sentence, however, the
CMCR applied the wrong legal standard. When an

11a
intermediate military court “reassesses a sentence
because of a prejudicial error, its task differs from
that which it performs in the ordinary review of a
case.” United States v. Sales, 22 M.J. 305, 307 (CMA
1986). To “purge[ ]” the sentence “of prejudicial error,”
the new sentence should be less than or equal to the
sentence that would have been delivered by the trier
of fact “absent any error.” Id. at 308. Here, the CMCR
concluded that the original life sentence remained
appropriate because any constitutional error in Al
Bahlul’s original sentence was harmless. Yet the
CMCR misapplied well-established harmless error
principles.
In ordinary criminal proceedings, an error may be
found harmless if the court determines it had no
“substantial and injurious effect or influence in
determining the jury’s verdict.” United States v.
Whitmore, 359 F.3d 609, 622 (D.C. Cir. 2004) (quoting
Kotteakos v. United States, 328 U.S. 750, 776 (1946)).
Yet “before a federal constitutional error can be held
harmless, the court must be able to declare a belief
that it was harmless beyond a reasonable doubt.”
Chapman v. California, 386 U.S. 18, 24 (1967)
(emphasis added). The military courts have adopted
the same standard in the court-martial context for
reviewing whether a constitutional error was
harmless, see Sales, 22 M.J. at 307–08 (concluding
that in cases of constitutional error “the Court of
Military Review should be persuaded beyond a
reasonable doubt that its reassessment has rendered
harmless any error affecting the sentence adjudged at
trial”), and the government concedes that the same
standard should apply in the military commission

12a
context, Gov’t Br. 28. We agree. In both the courtmartial context and in civilian criminal proceedings,
a constitutional error is considered harmless only if
found to be harmless beyond a reasonable doubt. As
all parties agree, military commissions should be
subject to the same harmless error standard that is
uniformly applied in other criminal contexts in cases
involving constitutional errors.
The CMCR purported to rely on the standard
articulated by the Court of Military Appeals in Sales
but erred in the application of the standard. The
CMCR maintained that it could reaffirm the original
sentence because the court was “confident that,
absent the error, the [military commission] would
have sentenced the appellant to confinement for life.”
Id. at 1273. Yet nowhere did the court explicitly
address whether the errors were harmless beyond a
reasonable doubt. Because the errors identified by Al
Bahlul I were constitutional ex post facto violations,
the CMCR applied the wrong harmless error standard
and therefore abused its discretion. See Cooter & Gell
v. Hartmarx Corp., 496 U.S. 384, 405 (1990) (holding
that it is necessarily an abuse of discretion to apply
the wrong legal standard). We therefore reverse and
remand for the CMCR to redetermine “the effect, if
any, of the two vacaturs on sentencing.” Al Bahlul I,
767 F.3d at 31. Under the harmless error standard
the government concedes applies, the CMCR must
determine the constitutional errors were harmless
beyond a reasonable doubt.
III.
Next, Al Bahlul argues that Crawford’s
appointment by the Secretary as Convening

13a
Authority was unlawful on three grounds. First, he
maintains that the 2006 MCA permits the Secretary
to select only individuals who are already serving as
officers of the United States. Alternatively, he argues
that the Convening Authority acts as a principal
officer, thus requiring presidential appointment after
Senate confirmation. Finally, Al Bahlul argues that
even if the Convening Authority is an inferior officer,
Crawford’s appointment by the Secretary violated the
Appointments Clause, because the 2006 MCA did not
vest the Secretary with the power to appoint an
inferior officer.
Al Bahlul’s challenges require us to interpret both
the Constitution’s Appointments Clause and the 2006
MCA. The Appointments Clause provides that the
President
shall nominate, and by and with the
Advice and Consent of the Senate, shall
appoint Ambassadors, other public
Ministers and Consuls, Judges of the
supreme Court, and all other Officers of
the United States, whose Appointments
are not herein otherwise provided for,
and which shall be established by Law;
but the Congress may by Law vest the
Appointment of such inferior Officers, as
they think proper, in the President
alone, in the Courts of Law, or in the
Heads of Departments.
U.S. CONST. art. II, § 2, cl. 2. Courts have long
referred to officers who must be appointed by the
President with Senate confirmation as “principal
officers.” See, e.g., United States v. Germaine, 99 U.S.

14a
508, 509–11 (1878). The statute establishing the
Convening Authority, Section 948h of the 2006 MCA,
provides that “[m]ilitary commissions ... may be
convened by the Secretary of Defense or by any officer
or official of the United States designated by the
Secretary for that purpose.” 10 U.S.C. § 948h. The
Convening Authority has significant authority,
including wide discretion to review a military
commission’s findings and sentences. See 10 U.S.C. §
950b(c)(2)(C) (2006) (“[T]he convening authority may,
in his sole discretion, approve, disapprove, commute,
or suspend the sentence in whole or in part.”).
Crawford’s appointment was entirely consistent
with both the Constitution and the 2006 MCA:
Section 948h allows the Secretary to select any official
of the United States to serve as the Convening
Authority, including mere employees. Moreover, the
Convening Authority is an inferior officer. Because
the 2006 MCA vests the Secretary with the power to
appoint inferior officers by law, Crawford’s
appointment was constitutional.
A.
Al Bahlul argues that Crawford’s appointment as
Convening Authority violated the 2006 MCA because
the Secretary may designate only an “officer or official
of the United States.” 10 U.S.C. § 948h. According to
Al Bahlul, the term “officer” refers only to military
officers, while the term “official” refers to civilian
officers. Either way, he contends the Convening
Authority must be a person who is already a principal
or inferior officer appointed through the procedures
prescribed by the Appointments Clause. Al Bahlul
argues that Crawford’s appointment was therefore

15a
unlawful because she was only an employee at the
time of her designation. In the government’s view, the
2006 MCA’s reference to “officer” includes all officers
of the United States in the constitutional sense, both
military and civilian, while the term “official” refers
broadly to other government employees. The MCA
thus allows the Secretary to select an employee to
serve as Convening Authority. The government has
the better reading of the statute. The term “official”
includes government employees who are not “Officers
of the United States” in the constitutional sense. Even
assuming Crawford was only an employee at the time
of her appointment, a question we do not decide,5 her
designation was consistent with the requirements of
the 2006 MCA.
The 2006 MCA permits the Secretary to designate
either officers or officials of the United States as the
Convening Authority. Against the Appointments
Clause background and in light of the text and
structure of the MCA, “official” cannot be read to
mean “civilian officer.” In the constitutional context,
The parties dispute the significance of the fact that Crawford
was already serving as a senior judge of CAAF. The government
contends that her status as a senior judge made her a principal
officer, which would cure several of the problems alleged by Al
Bahlul. See Gov’t Br. 47–50. Judges of CAAF are appointed by
the President with Senate confirmation; however, “[a] senior
judge shall be considered to be an officer or employee of the
United States ... only during periods the senior judge is
performing duties [as senior judge.]” 10 U.S.C. § 942(e)(4).
Because we conclude that Crawford’s appointment was lawful on
both statutory and constitutional grounds regardless of whether
she was already a principal or inferior officer of the United
States, we need not address the significance of her status as a
senior judge of CAAF.

5

16a
an “officer” is someone who “occup[ies] a continuing
position established by law” and who “exercis[es]
significant authority pursuant to the laws of the
United States.” Lucia v. SEC, ––– U.S. ––––, 138 S.
Ct. 2044, 2051 (2018) (quotation marks omitted). An
“official,” on the other hand, can be an employee with
less responsibility. See Lucia, 138 S. Ct. at 2050
(referring to “mere employees” as “officials with lesser
responsibilities who fall outside the Appointments
Clause’s ambit”). Congress regularly uses the word
“official,” a term that extends beyond officers in the
constitutional sense, to refer broadly to government
employees.6

For example, in a provision of the Military Commissions Act of
2009 governing access to classified information, the government
must submit a declaration signed by any “knowledgeable United
States official possessing authority to classify information.” 10
U.S.C. § 949p-4(a)(1). The statute does not limit the term
“official” to officers of the United States, and employees can
possess the authority to classify information. Similarly, in a
statute governing “military custody for foreign Al-Qaeda
terrorists,” Congress provided that certain procedures do “not
apply when intelligence, law enforcement, or other Government
officials of the United States are granted access to an individual
who remains in the custody of a third country”—again
suggesting that the term “official” applies broadly to those who
work for the United States government. National Defense
Authorization Act for Fiscal Year 2012, Pub. L. No. 112-81, §
1022, 125 Stat. 1298, 1564 (2011). This consistent usage extends
to other parts of the United States Code as well. For instance, in
a provision punishing the bribery of public officials, the term
“public official” includes “an officer or employee or person acting
for or on behalf of the United States, or any department, agency
or branch of Government ... in any official function.” 18 U.S.C. §
201(a)(1).

6

17a
By contrast, and consistent with the constitutional
background, Congress generally uses the word
“officer” to refer to principal and inferior officers who
must be appointed in accordance with the
Appointments Clause. See Steele v. United States, 267
U.S. 505, 507 (1925) (explaining that it is usually
“true that the words ‘officer of the United States,’
when employed in ... statutes ... have the limited
constitutional meaning”). The 2006 MCA is no
exception. The statute refers throughout to military
officers by using explicit language like “commissioned
officer of the armed forces.” See, e.g., 10 U.S.C. §
948i(a) (2006) (“Any commissioned officer of the
armed forces on active duty is eligible to serve on a
military commission.”); id. § 948j(b) (“A military judge
shall be a commissioned officer of the armed forces.”);
id. § 949b(b) (prohibiting the consideration of military
commission performance when “determining whether
a commissioned officer of the armed forces is qualified
to be advanced in grade”). Rather than use the
military officer language found elsewhere in the 2006
MCA, Section 948h uses the more generic “officer ... of
the United States,” without qualification. This
language mirrors the text of the Constitution’s
Appointments Clause, U.S. CONST. art. II, § 2, cl. 2,
which is a strong indication that “officer ... of the
United States” refers to all officers in the
constitutional sense, not just military officers. See
Steele, 267 U.S. at 507; United States v. Mouat, 124
U.S. 303, 307 (1888).
Contrary to this plain meaning, Al Bahlul
maintains that “officer or official of the United States”
includes only officers in the constitutional sense. Yet

18a
this interpretation reads the word “official” out of the
statute. See Hibbs v. Winn, 542 U.S. 88, 101 (2004)
(“A statute should be construed so that effect is given
to all its provisions, so that no part will be inoperative
or superfluous, void or insignificant.”). Al Bahlul
attempts to sidestep the surplusage problem by
limiting “officer” to military officers and “official” to
civilian officers. Yet nothing in the 2006 MCA
suggests that Congress used “official” in an
unorthodox sense meaning constitutional “officer.”
Similarly, there is no indication that “officer” means
exclusively military officers in Section 948h. To the
contrary, the statute explicitly refers to military
officers in other provisions as “commissioned officer[s]
of the armed forces.” 10 U.S.C. §§ 948i(a), 948j(b),
949b(b) (2006). We decline to limit Section 948h’s use
of the general term “officer” only to military officers,
a conclusion inconsistent with other provisions of the
2006 MCA as well as the ordinary constitutional
meaning of “officer ... of the United States.”
Al Bahlul next cites 10 U.S.C. § 101(b)(1), which
states that “‘officer’ means a commissioned or warrant
officer” in Title 10 of the United States Code. This
particular definition of “officer,” however, appears in
Section 101(b)’s list of definitions specifically
“relating to military personnel,” not in Section
101(a)’s general list of definitions, which apply to Title
10 without qualification. In other words, the
specialized definition found in Section 101(b)(1) would
apply only if we first assumed what Al Bahlul is
trying to prove—that “officer” in Section 948h refers
only to military personnel. Nothing in the text of
Section 948h suggests that it refers specifically to

19a
military personnel, so the military personnel
definition in Section 101(b)(1) is of little use.
Moreover, Section 101(b)(1) was not enacted as part
of the 2006 MCA; it was enacted over four decades
earlier as part of a general definitional statute. See
Pub. L. No. 87-649, 76 Stat. 451, 452 (1962). General
definitional statutes are more easily defeasible by
context than definitions found in the same statute as
the language at issue. See ANTONIN SCALIA & BRYAN
GARNER, READING LAW: THE INTERPRETATION OF
LEGAL TEXTS 279–80 (2012) (“[A] legislature has no
power to dictate the language that later statutes must
employ. ... [W]hen the definition set forth in an earlier
statute provides a meaning that the word would not
otherwise bear, it should be ineffective.”).
Here, the text is unambiguous: The Secretary may
designate either an officer or an official of the United
States, and the term official includes individuals who
were mere employees prior to their designation. Thus,
irrespective of whether Crawford was already an
officer, her appointment as the Convening Authority
did not violate the 2006 MCA.
B.
In addition to his statutory challenge to
Crawford’s appointment, Al Bahlul raises two
constitutional challenges under the Appointments
Clause. We start with his argument that Crawford’s
appointment by the Secretary was unconstitutional
because the Convening Authority acts as a principal
officer and therefore must be appointed by the
President with Senate confirmation. Because other
executive officers directed and supervised the
Convening Authority’s work, we hold that Crawford

20a
was an inferior officer and was therefore properly
appointed by the Secretary.
Both the government and Al Bahlul agree that
Crawford acted as an officer of the United States for
purposes of the Appointments Clause. The parties
dispute only whether she acted as a principal or
inferior officer. The Supreme Court addressed the
distinction between principal and inferior officers
most directly in Edmond v. United States, 520 U.S.
651 (1997). The Court explained that “the term
‘inferior officer’ connotes a relationship with some
higher ranking officer or officers below the President:
Whether one is an ‘inferior officer’ depends on
whether he has a superior.” Id. at 662. More
specifically, “‘inferior officers’ are officers whose work
is directed and supervised at some level by others who
were appointed by Presidential nomination with the
advice and consent of the Senate.” Id. at 663; see also
NLRB v. SW Gen., Inc., ––– U.S. ––––, 137 S. Ct. 929,
947 (2017) (Thomas, J., concurring) (“[A] principal
officer is one who has no superior other than the
President.”). Whether an officer is principal or
inferior is a “highly contextual” inquiry requiring a
close examination of the specific statutory framework
in question. In re Al-Nashiri, 791 F.3d 71, 84 (D.C.
Cir. 2015).
In order to determine whether an officer is inferior
because he is supervised by a principal officer, our
court looks to three factors drawn from Edmond:
whether there is a sufficient “degree of oversight,”
whether the officer has “final decisionmaking
authority,” and the extent of the officer’s
“removability.” In re Grand Jury Investigation, 916

21a
F.3d 1047, 1052 (D.C. Cir. 2019). Each of the three
factors identified by Edmond and our subsequent
cases indicates that the Convening Authority is an
inferior officer. The Convening Authority’s decisions
are not final and are subject to review by the CMCR;
the Secretary maintains additional oversight by
promulgating rules and procedures; and the
Convening Authority is removable at will by the
Secretary.
First, the bulk of the Convening Authority’s
decisions are not final. Instead, they are subject to
review by the CMCR. See 10 U.S.C. § 950f (2006). To
be sure, the CMCR’s review was limited to questions
of law under the 2006 MCA, id. § 950f(d), but the same
was true in Edmond, which held that the judges of the
Coast Guard Court of Criminal Appeals were inferior
officers even though CAAF can review their factual
findings only to determine whether the evidence
underlying a conviction is sufficient as a matter of
law. See 520 U.S. at 665 (noting that CAAF “will not
reevaluate the facts” unless there is no “competent
evidence in the record to establish each element of the
offense beyond a reasonable doubt”); United States v.
Leak, 61 M.J. 234, 239 (C.A.A.F. 2005) (“[T]his Court’s
review is limited to questions of law.”). Despite that
limitation, Edmond concluded that the degree of
oversight was sufficient to render judges of the Court
of Criminal Appeals inferior officers for Appointments
Clause purposes. Id. at 665–66 (explaining that the
narrow scope of the review did not “render the judges
of the Court of Criminal Appeals principal officers.
What is significant is that the judges of the Court of
Criminal Appeals have no power to render a final

22a
decision on behalf of the United States unless
permitted to do so by other Executive officers.”).
Similarly, in Intercollegiate Broadcasting System,
Inc, v. Copyright Royalty Board, we determined that
Copyright Royalty Judges were inferior officers, even
though direct review of the Judges’ factual findings
was also severely limited. 684 F.3d 1332, 1339 (D.C.
Cir. 2012) (“[T]he Register’s power to control the
[Judges’] resolution of pure issues of law plainly
leaves vast discretion over the rates and terms.”).
Nonetheless, after our court severed the Judges’
removal protections, we determined that they were
inferior officers. Id. 1341–42 (“Although individual ...
decisions will still not be directly reversible, the
Librarian would be free to provide substantive input
on non-factual issues. ... This, coupled with the threat
of removal satisfies us that the [Copyright Royalty
Judges’] decisions will be constrained to a significant
degree by a principal officer (the Librarian).”). The
power to review even pure legal determinations is “is
a nontrivial limit on” an officer’s decisionmaking such
that an officer may be deemed an “inferior” officer for
purposes of the Appointments Clause. Id. at 1339.
Al Bahlul emphasizes that the CMCR is unable to
review several of the Convening Authority’s
consequential powers. Most importantly, the
Convening Authority has the power to modify
charges, overturn a verdict, or commute a sentence,
all of which are effectively unreviewable. See 10
U.S.C. § 950b(c)(2)(C) (2006) (“[T]he convening
authority may, in his sole discretion, approve,
disapprove, commute, or suspend the sentence in
whole or in part.”). Once again, Edmond is closely

23a
analogous: The judges of the Court of Criminal
Appeals have the power to “independently weigh the
evidence” without “defer[ence] to the trial court’s
factual findings.” See 520 U.S. at 662 (quotation
marks omitted). If they decide to reverse the factual
findings underlying a conviction, thus overturning
the verdict, CAAF has no power to reverse that
decision unless the evidence was insufficient as a
matter of law. See id. at 665; Leak, 61 M.J. at 239.
Although the Convening Authority may make some
final decisions, that authority is consistent, as in
Edmond, with being an inferior officer. See Edmond,
520 U.S. at 662 (emphasizing that the significance of
the authority exercised by an officer does not
necessarily determine whether he is principal or
inferior, because all constitutional officers “exercis[e]
significant authority on behalf of the United States”).
Second, the Secretary maintains a degree of
oversight and control over the Convening Authority’s
work through policies and regulations. The Secretary
has the power to prescribe procedures and rules of
evidence governing military commissions, including
rules governing “post-trial procedures.” 10 U.S.C. §
949a(a). The Secretary has exercised that authority to
regulate and to oversee the conduct of the Convening
Authority in detailed ways. See, e.g., R.M.C. 104(a)(1)
(2007) (prohibiting the Convening Authority from
censuring, reprimanding, or admonishing the
military commission, its members, or the military
judge); R.M.C. 407 (2007) (prescribing rules for the
forwarding and disposition of charges); R.M.C. 601(f)
(2007) (“The Secretary of Defense may cause charges,
whether or not referred, to be transmitted to him for

24a
further consideration, including, if appropriate,
referral.”); see also In re Grand Jury, 916 F.3d at 1052
(concluding that special counsel Robert Mueller was
an inferior officer because the Attorney General “has
authority to rescind at any time the Office of Special
Counsel regulations”). While the Secretary’s power to
define rules of evidence and other procedures does not
by itself make the Convening Authority an inferior
officer, it provides further evidence that the
Convening Authority’s work is directed by the
Secretary and subject to his supervision.
Finally, the Convening Authority is removable at
will by the Secretary. The 2006 MCA includes no
explicit tenure provisions, and “[t]he long-standing
rule relating to the removal power is that, in the face
of congressional silence, the power of removal is
incident to the power of appointment.” Kalaris v.
Donovan, 697 F.2d 376, 401 (D.C. Cir. 1983); see also
Oral Argument at 14:25 (Al Bahlul’s counsel
conceding that “there’s no tenure protection” for the
Convening Authority). As the Supreme Court
concluded in Edmond, the “power to remove officers
... is a powerful tool for control.” Edmond, 520 U.S. at
664.
Al Bahlul argues that the power to remove means
little here because the Convening Authority’s
“‘judicial acts’ are statutorily insulated from” the
Secretary’s interference. Reply Br. 16. The 2006 MCA
provides that “[n]o person may attempt to coerce or,
by any unauthorized means, influence ... the action of
any convening, approving, or reviewing authority
with respect to his judicial acts.” See 10 U.S.C. §
949b(a)(2)(B) (2006). Yet such insulation was also

25a
present in Edmond: The judges of the Court of
Criminal Appeals are removable at will only by the
Judge Advocate General, who is prohibited from
“influenc[ing] (by threat of removal or otherwise) the
outcome of individual proceedings.” 520 U.S. at 664
(citing UCMJ Art. 37, 10 U.S.C. § 837). In other
words, the judicial acts of the Court of Criminal
Appeals, like the judicial acts of the Convening
Authority, have some statutory insulation from
interference by the person holding the removal power.
The removal power was nonetheless an important
factor in Edmond in determining that the Court of
Criminal Appeals judges are inferior officers.
Similarly, we held in Intercollegiate that removal at
will is a powerful tool for control even when direct
review is limited. See 684 F.3d at 1340–41 (severing
removal restrictions was sufficient to make Copyright
Royalty Judges inferior officers); see also In re Grand
Jury, 916 F.3d at 1052–53 (holding that special
counsel Robert Mueller was an inferior officer in part
because he “effectively serve[d] at the pleasure of an
Executive Branch officer” and because the “control
thereby maintained” ensured a meaningful degree of
oversight).
Edmond requires that inferior officers have “some
level” of direction and supervision by a principal
officer, 520 U.S. at 663, not necessarily total control.
Even inferior officers exercise discretion and
important duties established by law. The
Appointments Clause allows the appointment of such
officers to be vested in a Head of Department so long
as the proper chain of command is maintained. See 1
Annals of Cong. 499 (1789) (statement of James

26a
Madison) (explaining that the President may rely
primarily on subordinates because “the lowest
officers, the middle grade, and the highest, will
depend, as they ought, on the President,” establishing
a “chain of dependence”). Here, the factors identified
by the Supreme Court in Edmond establish that the
Convening Authority is an inferior officer. As an
inferior officer, Crawford’s appointment by the
Secretary was perfectly consistent with the
Appointments Clause.
C.
Even if the Convening Authority is an inferior
officer, Al Bahlul argues that Crawford’s appointment
violated the Appointments Clause because Section
948h does not vest the Secretary with the power to
appoint an inferior officer. Al Bahlul Br. 28–34.
According to Al Bahlul, Section 948h does no more
than describe a duty that can be delegated to existing
constitutional officers. He also argues that the 2006
MCA does not create “a freestanding office” to which
an inferior officer could be appointed. Id. Contrary to
Al Bahlul’s characterizations, the 2006 MCA’s
conferral of the power to designate the Convening
Authority was sufficient to vest the Secretary with
the constitutional power to appoint an inferior officer.
Article II of the Constitution grants Congress
broad power to “vest the Appointment of ... inferior
Officers” in “the Heads of Departments.” U.S.
CONST., art. II, § 2, cl. 2. Whether to exercise this
power is explicitly left to Congress’s discretion, to be
done “as they think proper.” Id. This power is
reinforced by Article I, which authorizes Congress
“[t]o make all Laws which shall be necessary and

27a
proper for carrying into Execution ... Powers vested
by this Constitution in the Government of the United
States, or in any Department or Officer thereof.” Id.,
art. I, § 8, cl. 18. Thus, “Congress has plenary control
over the ... existence of executive offices.” Free
Enterprise Fund v. PCAOB, 561 U.S. 477, 500 (2010);
see also Myers v. United States, 272 U.S. 52, 129
(1926) (“To Congress under its legislative power is
given the establishment of offices, the determination
of their functions and jurisdiction, the prescribing of
reasonable and relevant qualifications and rules of
eligibility of appointees, and the fixing of the term for
which they are to be appointed and their
compensation.”).
Consistent with the Constitution’s requirement
that Congress vest the power to appoint an officer “by
law,” statutes “repeatedly and consistently
distinguish[ ] between an office that would require a
separate appointment and a position or duty to which
one [can] be ‘assigned’ or ‘detailed’ by a superior.”
Weiss v. United States, 510 U.S. 163, 172 (1994).
While the explicit use of the term “appoint” may
“suggest[ ]” whether a statute vests the appointment
power, Edmond, 520 U.S. at 658, our court has held
that Congress need not use explicit language to vest
an appointment in someone other than the President.
See In re Grand Jury, 916 F.3d at 1053–54; In re
Sealed Case, 829 F.2d 50, 55 (D.C. Cir. 1987). Thus,
reading the statute as a whole, we consider whether
Congress in fact authorized a department head to
appoint an inferior officer. Cf. In re Sealed Case, 829
F.2d at 55 (reading the statute as a whole and
determining it “accommodat[ed] the delegation” of

28a
responsibilities by the Attorney General to a special
counsel). Two features of the 2006 MCA suggest that
Congress exercised its broad power to vest the
appointment of the Convening Authority in the
Secretary. First, after establishing and defining the
office of the Convening Authority in considerable
detail, Section 948h specifically provides that the
Secretary will choose the person to fill that office.
Second, because the text and structure of the statute
are readily interpreted as a lawful exercise of
Congress’s power to vest the appointment power in a
department head, we decline to adopt an
interpretation that would render the provision
unconstitutional.
The text and structure of the 2006 MCA show that
Congress established a new office—the Convening
Authority—and tasked the Secretary with selecting
the person to fill that office. By referring to the
Convening Authority by name and using the definite
article “the,” several sections of the 2006 MCA
strongly suggest that the Convening Authority is a
distinct office and not simply a duty to be performed
by existing officers. See, e.g., 10 U.S.C. § 948i(b)
(2006) (“[T]he convening authority shall detail as
members of the commission such members ... [who] in
the opinion of the convening authority, are best
qualified for the duty.”); see also id. § 950b(a); id. §
950b(b); § 948l(a). The text of the 2006 MCA is in
stark contrast to the UCMJ, which specifically lists
existing officers who are permitted to perform the
function of convening courts-martial. See 10 U.S.C. §
822. The 2006 MCA, on the other hand, grants the
Secretary the power to designate any officer or official

29a
to be “the convening authority,” a new office created
by the statute. Section 948h authorizes the Secretary
to designate the person who will occupy that office.
Because no magic words are required to grant a
department head the power to appoint an inferior
officer, this designation is sufficient for the power to
be vested “by law.”
Al Bahlul’s reading not only runs contrary to the
ordinary meaning of the statute, but would
unnecessarily raise serious constitutional concerns.
We decline to read the 2006 MCA in a manner that
would
render
Crawford’s
appointment
unconstitutional when another interpretation is
readily available. See United States v. X-Citement
Video, Inc., 513 U.S. 64, 69 (1994) (“[A] statute is to
be construed where fairly possible so as to avoid
substantial constitutional questions.”). As discussed
above, the 2006 MCA unambiguously permits the
Secretary to designate as the Convening Authority an
individual who, at the time of the designation, was a
mere employee. Both parties agree, however, that the
Convening Authority exercises the type of significant
responsibilities that properly belong to an officer of
the United States. Thus, if Section 948h does not vest
in the Secretary the power to appoint an inferior
officer, then the statute permits an employee to
exercise the duties of an officer of the United States
without a constitutional appointment. Nothing in the
text or structure of the statute requires us to interpret
it in this way, which flies in the face of the plain
meaning and would raise significant constitutional
doubts. Al Bahlul’s final challenge to Crawford’s
appointment therefore fails.

30a
Reading the statute as a whole, we conclude that
in Section 948h Congress exercised its broad power
under the Appointments and Necessary and Proper
Clauses to create an office of the Convening Authority
and to vest the power to appoint this inferior officer
in the Secretary. Thus, Crawford’s appointment
satisfied the requirements of the Constitution as well
as the 2006 MCA.
IV.
Next, Al Bahlul asks the court to reconsider his ex
post facto challenge to his conspiracy conviction, a
challenge we reviewed for plain error in Al Bahlul I
because it was forfeited below. See 767 F.3d at 18–27.
The law-of-the-case doctrine dictates that “the same
issue presented a second time in the same case in the
same court should lead to the same result.” LaShawn
A. v. Barry, 87 F.3d 1389, 1393 (D.C. Cir. 1996) (en
banc) (emphasis omitted). The doctrine bars relitigation “in the absence of extraordinary
circumstances.” Christianson v. Colt Indus. Operating
Corp., 486 U.S. 800, 817 (1988). We may reconsider a
prior ruling in the same litigation if there has been
“an intervening change in the law.” Kimberlin v.
Quinlan, 199 F.3d 496, 500 (D.C. Cir. 1999). None of
these limited circumstances are present here and
therefore we cannot reconsider our forfeiture ruling in
Al Bahlul I.
According to Al Bahlul, the Supreme Court’s
decision in Class v. United States fundamentally
changed the law of forfeiture and plain error review.
See ––– U.S. ––––, 138 S. Ct. 798 (2018). But Class’s
holding was relatively narrow. The Supreme Court
held that a criminal defendant who pleads guilty does

31a
not
necessarily
waive
challenges
to
the
constitutionality of the statute under which he is
convicted. Id. at 803–05. The Court did not, however,
hold that such claims are not waivable at all: The
Court addressed only whether a guilty plea
constitutes a waiver “by itself.” Id. at 803; see also id.
at 805 (concluding that a “guilty plea does not bar a
direct appeal in these circumstances”) (emphasis
added). The Court twice emphasized that Class had
not waived his objections through conduct other than
his guilty plea, see id. at 802, 807, thus making clear
that the Court was addressing only the effect of
pleading guilty. Al Bahlul did not plead guilty, so
Class is irrelevant to this case.
Moreover, because Class addressed only waiver, it
did not diminish our holding in Al Bahlul I, which
involved forfeiture. See 767 F.3d at 10. “Forfeiture is
the failure to make the timely assertion of a right;
waiver is the intentional relinquishment or
abandonment of a known right.” United States v.
Miller, 890 F.3d 317, 326 (D.C. Cir. 2018) (quotation
marks and alterations omitted). After Class, two of
our sister circuits have held that constitutional claims
should be reviewed only for plain error if a criminal
defendant forfeits his claims before the district court.
See United States v. Rios-Rivera, 913 F.3d 38, 42 (1st
Cir. 2019); United States v. Bacon, 884 F.3d 605, 610–
11 (6th Cir. 2018). Those decisions are consistent with
the “familiar” principle “that a constitutional right
may be forfeited in criminal as well as civil cases by
the failure to make timely assertion of the right.”
Peretz v. United States, 501 U.S. 923, 936–37 (1991).
Al Bahlul “flatly refused to participate in the military

32a
commission proceedings and instructed his trial
counsel not to present a substantive defense.” Al
Bahlul I, 767 F.3d at 10. This forfeiture made it
appropriate for our court to review his ex post facto
defense for plain error.
Taking a slightly different approach, Al Bahlul
argues that even if a challenge to the constitutionality
of the statute of conviction would be subject to
forfeiture in the Article III context, it cannot be
forfeited in the military context, where any
fundamental defect in the document charging the
accused with a crime deprives the military court of
jurisdiction. Al Bahlul Br. 37–39 (citing United States
v. Ryan, 5 M.J. 97, 101 (CMA 1978)). Even assuming
arguendo that Al Bahlul has accurately characterized
jurisdictional rules in the military context, he fails to
identify an intervening change in the law that would
support overturning Al Bahlul I: An ex post facto
violation has been a constitutional defect since the
Constitution’s ratification, and every source Al Bahlul
cites for the proposition that military courts view
jurisdiction differently predates Al Bahlul I. See id.
Finally, Al Bahlul argues that we should
reconsider the en banc decision because the
Department of Defense has purportedly changed its
position on a material legal question. In Al Bahlul I,
our court held that it was “not obvious” for the
purposes of plain error review “that conspiracy was
not traditionally triable by law-of-war military
commission.” 767 F.3d at 27. Al Bahlul contends that
the Department of Defense has since taken a position
that is inconsistent with this court’s conclusion, albeit
in non-binding materials such as the LAW OF WAR

33a
MANUAL. Al Bahlul Br. 40–42; see also DEPARTMENT
OF DEFENSE, LAW OF WAR MANUAL § 1.1.1 (2015)
(“This manual is not intended to, and does not, create
any right ... enforceable at law or in equity against the
United States.”). Al Bahlul offers no support for the
notion that a party’s change of position—in this case,
one gleaned from non-binding internal documents—is
one of the extraordinary circumstances warranting
reconsideration of a court’s holding under the law-ofthe-case doctrine.7
Furthermore, we rejected this ex post facto
challenge in Al Bahlul I “for two independent and
alternative reasons.” 767 F.3d at 18. Al Bahlul
contends that the government changed its position on
whether conspiracy was previously triable by military
commissions under the law of war, but his argument
does not undermine this court’s alternative holding
that “the conduct for which he was convicted was
already criminalized under 18 U.S.C. § 2332(b),” id.,
which punishes conspiracies to kill United States
nationals.
Because Al Bahlul has failed to identify an
intervening change of law or any other extraordinary
circumstance, we decline to revisit the en banc court’s
In any event, the Department of Defense maintains that it has
not changed its position on whether conspiracy was historically
triable by military commission, which is supported by the LAW
OF WAR MANUAL. See LAW OF WAR MANUAL § 18.23.5 (stating
that “[t]he United States has taken the position that conspiracy
to violate the law of war is punishable” and that “[t]he United
States has” historically “used military tribunals to punish
unprivileged belligerents for the offense of conspiracy to violate
the law of war”).

7

34a
treatment of his ex post facto challenge to his
conspiracy conviction.
V.
Finally, Al Bahlul argues that the manner in
which the government is executing his sentence is
unlawful. Specifically, he claims that the government
has unlawfully subjected him to indefinite solitary
confinement and that the government’s current
policies wrongfully bar him from parole consideration.
Al Bahlul’s challenges to the ongoing status of his
confinement are outside our jurisdiction on direct
appeal, which is limited to “determin[ing] the validity
of a final judgment rendered by a military
commission.” 10 U.S.C. § 950g(a). We “may act ... only
with respect to the findings and sentence as approved
by the convening authority and as affirmed or as set
aside as incorrect in law by the [CMCR].” Id. §
950g(d). Because we have jurisdiction in this posture
only to review the validity of the sentence, and
because we may act only with respect to actions taken
by the Convening Authority and the CMCR, Al Bahlul
must bring any challenges to the conditions of his
confinement through a different mechanism—likely a
petition for a writ of habeas corpus. See Aamer v.
Obama, 742 F.3d 1023, 1038 (D.C. Cir. 2014).8
In response, Al Bahlul emphasizes that CAAF has
interpreted its analogous jurisdictional provision to
permit consideration on direct review of whether the
“approved sentence is being executed in a manner
that offends the Eighth Amendment.” United States
Because this court lacks jurisdiction, we express no opinion on
the procedural or substantive merits of such a challenge.

8

35a
v. White, 54 M.J. 469, 472 (CAAF 2001). We recognize
that “military courts are capable of, and indeed may
have superior expertise in, considering challenges to
their jurisdiction over disciplinary proceedings.” New
v. Cohen, 129 F.3d 639, 645 (D.C. Cir. 1997). Yet we
always have an independent obligation to determine
whether our court’s jurisdiction is proper. Arbaugh v.
Y&H Corp., 546 U.S. 500, 506–07 (2006). While we
sometimes rely on parallels between the UCMJ and
the 2006 MCA, an Article III court cannot assume
jurisdiction by analogy to an Article II court’s
interpretation of a different statute. The MCA
permits us to act “only with respect to the findings
and sentence as approved by the convening
authority,” 10 U.S.C. § 950g(d), and therefore we lack
jurisdiction to hear Al Bahlul’s challenges to the
conditions of his ongoing confinement.
***
For foregoing reasons, we affirm in part, reverse
in part, and dismiss Al Bahlul’s petition in part for
lack of jurisdiction. We remand for the CMCR to
reevaluate Al Bahlul’s life sentence under the correct
harmless error standards, but we reject Al Bahlul’s
remaining challenges.
So ordered.

36a
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-1076
Ali Hamza Ahmad
Suliman Al Bahlul,
Petitioner

September Term
2019
Filed On: August 4,
2020

v.
United States of America,
Respondent
———————
On Petition for Review from the United States Court
of Military Commission Review
———————
BEFORE:

Griffith and Rao, Circuit Judges; and
Edwards, Senior Circuit Judge
JUDGMENT

This cause came on to be heard on the petition for
review from the United States Court of Military
Commission Review and was argued by counsel. On
consideration thereof, it is

37a
ORDERED and ADJUDGED that the petition for
review be affirmed in part and reversed in part, and
the case be remanded for the CMCR to reevaluate Al
Bahlul’s life sentence under the correct harmless
error standard, and in accordance with the opinion of
the court filed herein this date.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Daniel J. Reidy
Deputy Clerk
Date: August 4, 2020
Opinion for the court filed byt Circuit Judge Rao

38a
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-1076

September Term
2020

Ali Hamza Ahmad
Suliman Al Bahlul

CMCR-16-002

Petitioner
v.

Filed On: January
21, 2021

United States of America
Respondent

BEFORE:

Srinivasan*, Chief Judge; Henderson*,
Rogers, Tatel, Garland*, Millett, Pillard,
Wilkins, Katsas, Rao, and Walker,
Circuit Judges; and Edwards, Senior
Circuit Judge
ORDER

Upon consideration of petitioner’s petition for
rehearing en banc and the response thereto;
petitioner’s motion for leave to file a reply and the
lodged reply; and the absence of a request by any
member of the court for a vote, it is

39a
ORDERED that the motion be granted. The Clerk is
directed to file the lodged reply. It is
FURTHER ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Daniel J. Reidy
Deputy Clerk
*Chief Judge Srinivasan and Circuit Judges
Henderson and Garland did not participate in this
matter.

40a
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-1076

September Term
2020

Ali Hamza Ahmad
Suliman Al Bahlul

CMCR-16-002

Petitioner
v.

Filed On: March
29, 2021

United States of America
Respondent

BEFORE:

Srinivasan*, Chief Judge; Henderson*,
Rogers, Tatel, Garland*, Millett, Pillard,
Wilkins, Katsas, Rao, and Walker,
Circuit Judges; and Edwards, Senior
Circuit Judge
ORDER

Upon consideration of petitioner’s motion for
reconsideration en banc of the denial of his petition
for rehearing en banc, the response thereto, and the
reply, it is
ORDERED that the motion be denied.

41a
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Michael C. McGrail
Deputy Clerk
*Chief Judge Srinivasan and Circuit Judge
Henderson did not participate in this matter.

42a
Appendix B
UNITED STATES COURT OF
MILITARY COMMISSION REVIEW
———————
No. 16-002
———————
ALI HAMZA AHMAD SULIMAN AL BAHLUL,
Appellant,
v.
UNITED STATES OF AMERICA,
Appellee.
———————
On Petition for Review from the United States Court
of Military Commission Review
———————
OPINION
———————
March 21, 2019
———————
Colonel Peter E. Brownback, III, JA, U.S. Army, was the
military commission judge through arraignment, and Colonel
Ronald A. Gregory, JA, U.S. Air Force, was the military
commission judge through trial.
On the briefs for appellant were Major Todd Pierce, JA,
U.S. Army (Ret.), Senior Fellow Univ. of Minnesota Human
Rights Center, Michel Paradis, and Mary R. McCormick.

43a
On the briefs for appellee were Brigadier General Mark
S. Martins, U.S. Army, and Michael J. O’Sullivan.
———————
Before BURTON, Chief Judge; SILLIMAN, Deputy Chief
Judge; and POLLARD, HUTCHISON, and FULTON,
Appellate Judges
HUTCHINSON, Judge.
This case is before us on remand from the Court of
Appeals for the District of Columbia Circuit (D.C.
Circuit). That Court returned this case to us after
affirming appellant Al Bahlul’s conspiracy to commit
war crimes conviction,1 and vacating his convictions
for solicitation and providing material support for
terrorism. Al Bahlul v. United States, 767 F.3d 1, 31
(D.C. Cir. 2014) (en banc) (Bahlul II), aff’d en banc per
curiam, 840 F.3d 757, 759 (D.C. Cir. 2016) (Bahlul
III), cert. denied, 138 S.Ct. 313 (2017).2 The D.C.

Appellant was tried and sentenced in 2008 for violating § 950u
of the 2006 Military Commissions Act (MCA), Pub. L. No. 109366, 120 Stat. 2600. United States v. Al Bahlul, 820 F.Supp.2d
1141, 1156-58 (CMCR 2011) (en banc) (Bahlul I), Al Bahlul v.
United States, 767 F.3d 1, 31 (D.C. Cir. 2014) (en banc) (Bahlul
II), aff’d en banc per curiam, 840 F.3d 757, 759 (D.C. Cir. 2016)
(Bahlul III), cert. denied, ––– U.S. ––––, 138 S.Ct. 313 (2017).

1

The court held that “any Ex Post Facto clause error in trying
Bahlul on conspiracy to commit war crimes [was] not plain.” Id.
at 27. In a subsequent opinion, the court rejected Al Bahlul’s
additional arguments “that Articles I and III of the Constitution
bar Congress from making conspiracy an offense triable by
military commission, because conspiracy is not an offense under
the international law of war” and, once again affirmed his
conviction for conspiracy to commit war crimes. Bahlul III, 840
F.3d at 758.

2

44a
Circuit’s mandate directs us “to determine the effect,
if any, of the two vacaturs on sentencing.” Id.
Before us, the appellant argues that his sentence
is inappropriate for his remaining offense, and that
we cannot be confident that, but for the error affecting
his case, he would have received a sentence of
confinement for life. He also raises two other issues
not directly related to the D.C. Circuit’s mandate:
First, he challenges his remaining conviction for
conspiracy to commit war crimes. He asserts that the
vacatur of the two other charges casts doubt on the
legality of the remaining charge, which survived the
D.C. Circuit’s scrutiny only because that court found
that the appellant’s ex post facto challenge had been
forfeited. On remand, the appellant urges that our
more generous scope of review allows us to perform a
de novo review now, even though the D.C. Circuit has
affirmed the conviction. The appellant’s second new
issue is a motion to dismiss his case altogether for
lack of subject-matter jurisdiction. He claims that his
commission lacked jurisdiction because the
Convening Authority’s appointment was statutorily
and constitutionally improper, and that she was
therefore without any authority to convene a military
commission.
The government argues that we may reassess the
appellant’s sentence and that we should affirm the
appellant’s sentence to confinement for life. The
government further argues that the appellant is not
entitled to a de novo review of his remaining
conviction, and that we should not now consider his
newest challenge to the Convening Authority’s
appointment contending it is not jurisdictional.

45a
Our task, then, is first to determine what
arguments we may properly consider given the
procedural posture of the case. We conclude that a de
novo review of the appellant’s remaining conviction is
beyond the scope of our review on remand. We further
conclude that we should consider the appellant’s
jurisdictional claim and his argument that his
sentence is inappropriate to his remaining offense.
We decide both of these issues in the government’s
favor.
I. Scope of review on remand
The D.C. Circuit directed us to determine the
effect, if any, of the two vacaturs on the appellant’s
sentence. Bahlul II, 767 F.3d at 31. The two
additional issues raised by the appellant—the request
for a de novo review of the remaining conviction and
the jurisdictional question—are not plainly within the
scope of our review on remand.
A. De novo review of remaining conviction
We first ask if a de novo review of the appellant’s
remaining conviction is within the scope of our
review. We approach this question with two closelyrelated concepts: the law-of-the-case doctrine and the
mandate rule.
The “‘law-of-the-case’ doctrine refers to a family of
rules embodying the general concept that a court
involved in later phases of [litigation] should not
reopen questions decided ... by that court or a higher
one in earlier phases.” Crocker v. Piedmont Aviation,
49 F.3d 735, 739 (D.C. Cir. 1995). Our superior court
further explained that:

46a
When there are multiple appeals taken
in the course of a single piece of
litigation, law-of-the-case doctrine holds
that decisions rendered on the first
appeal should not be revisited on later
trips to the appellate court. The
Supreme Court has instructed the lower
courts to be loathe to reconsider issues
already decided in the absence of
extraordinary circumstances such as
where the initial decision was clearly
erroneous and would work a manifest
injustice.
LaShawn A. v. Barry, 87 F.3d 1389, 1393 (D.C. Cir.
1996) (LaShawn II) (en banc) (internal citations and
quotation marks omitted).
The “mandate rule is [simply] a ‘more powerful
version’ of the law-of-the-case doctrine.” Indep.
Petroleum Ass’n v. Babbitt, 235 F.3d 588, 597 (D.C.
Cir. 2001) (quoting LaShawn II, 87 F.3d at 1393).
Under the mandate rule, “an inferior court has no
power or authority to deviate from the mandate
issued by [a superior] appellate court.” Briggs v. Penn.
R.R., 334 U.S. 304, 306 (1948); see also United States
v. Kpodi, 888 F.3d 486, 491 (D.C. Cir. 2018) (“A
district court commits legal error and therefore
abuses its discretion when it fails to abide by ... the
mandate rule.”). “In long-running litigation like this,
[we] are especially constrained because [we] may not
‘do anything which is contrary to the letter or spirit of
the mandate.’” Morley v. CIA, 894 F.3d 389, 401 (D.C.
Cir. 2018) (citation omitted).

47a
“The mandate rule has two components—the
limited remand rule, which arises from action by an
appellate court, and the waiver rule, which arises
from action (or inaction) by one of the parties.” United
States v. O’Dell, 320 F.3d 674, 679 (6th Cir. 2003).
Thus, the mandate rule places “two major limitations”
on the scope of a remand: “any issue that could have
been but was not raised on appeal is waived and thus
not remanded,” and “any issue conclusively decided
by [the appellate court] is not remanded.” United
States v. Husband, 312 F.3d 247, 250-51 (7th Cir.
2002). The rule, therefore, “forecloses relitigation of
issues expressly or impliedly decided by the appellate
court.” United States v. Ben Zvi, 242 F.3d 89, 95 (2d
Cir. 2001) (citations omitted) (emphasis in original).
“Likewise, where an issue was ripe for review at the
time of an initial appeal but was nonetheless
foregone, the mandate rule generally prohibits [our
Court] from reopening the issue on remand unless the
mandate can reasonably be understood as permitting
it to do so.” Id. (citations omitted).
“The mandate rule serves two key interests, those
of hierarchy and finality.” Doe v. Chao, 511 F.3d 461,
465 (4th Cir. 2007). “A rule requiring a [lower] court
to follow a [superior] court’s directives that establish
the law of a particular case is necessary to the
operation of a hierarchical judicial system.”
Mirchandani v. United States, 836 F.2d 1223, 1225
(9th Cir. 1988). In our judicial hierarchy, the decisions
of the D.C. Circuit bind the district courts within the
circuit—and our Court—just as decisions of the
Supreme Court bind the D.C. Circuit. “The principle
of hierarchy is no empty shell. It protects the very

48a
value and essential nature of an appeal, namely the
chance afforded litigants for review of a judgment and
for correction, generally by a larger judicial body, of
errors that may have serious consequences or work
significant injustice.” Doe, 511 F.3d at 465. With
regard to finality, once the superior appellate court
“determines questions put before it, the orderly
resolution of the litigation requires the [lower] court
to recognize those interests served by final judgments
and to implement the appellate mandate faithfully.”
Id. at 466.
The appellant wishes to make an ex post facto
challenge to his remaining conviction. He argues that
the D.C. Circuit was constrained by Federal Rule of
Criminal Procedure (Fed R. Crim. P.) 52 to find that
this issue had been forfeited. Since we are not so
constrained, argues the appellant, we should conduct
a de novo review of this conviction before determining
whether we should affirm his sentence.
The appellant’s assertion that the scope of our
review is more generous than the D.C. Circuit’s is
correct. The 2009 MCA § 950f(d) requires our Court to
review the appellant’s record for factual sufficiency
and sentence appropriateness:
The Court may affirm only such findings
of guilty, and the sentence or such part
or amount of the sentence, as the Court
finds correct in law and fact and
determines, on the basis of the entire
record, should be approved. In
considering the record, the Court may
weigh the evidence, judge the credibility

49a
of
witnesses,
and
determine
controverted
questions
of
fact,
recognizing
that
the
military
commission saw and heard the
witnesses.
See also Hicks v. United States, 94 F.Supp.3d 1241,
1247 (CMCR 2015). This statutory language mirrors
the language from Article 66(c), UCMJ, 10 U.S.C. §
866(c), which defines the authority exercised by the
military service courts of criminal appeals. We, like
the service courts of criminal appeals, may reach
issues that are forfeited, or even waived. The Court of
Appeals for the Armed Forces (CAAF) has interpreted
this language to be a grant of an “awesome, plenary,
de novo power of review.” United States v. Cole, 31
M.J. 270, 272 (C.M.A. 1990). Under 2009 MCA §
948b(c), the appellate decisions from the service
courts of criminal appeals and the CAAF are
“instructive” but not “binding” on this Court.
Congress is presumed to know the judicial
interpretation of statutory language when enacting
legislation. When it later uses the same language in
reenacting the statute or enacting another statute, it
is understood that Congress is adopting the extant
statutory interpretation. See Owens v. Republic of
Sudan, 864 F.3d 751, 778 (D.C. Cir. 2017) (citing
Lorillard v. Pons, 434 U.S. 575, 580, 98 S.Ct. 866, 55
L.Ed.2d 40 (1978)); see also Johnson v. United States,
529 U.S. 694, 710 (2000) (“when a new legal regime
develops out of an identifiable predecessor, it is
reasonable to look to the pre-cursor in fathoming the
new law”). We, therefore, follow the judicial

50a
interpretation of 10 U.S.C. § 866(c) set forth above by
the military appellate courts.
Though our scope of review is different from and
more expansive than that of the D.C. Circuit, the
government contends that the D.C. Circuit’s remand
to our Court limits our review to consideration of the
appellant’s sentence; that our plenary review under
2009 MCA § 950f(d) has already been completed; that
the appellant’s conviction for conspiracy to commit
war crimes has been affirmed by the D.C. Circuit and
is final and conclusive, pursuant to 2009 MCA § 950j;3
and that we therefore have no authority to consider
challenges to the underlying conviction at this stage
in the litigation.
In United States v. Reed, 1 M.J. 1114 (N.C.M.R.
1977), the Navy Court of Military Review was tasked
on remand with reassessing Reed’s sentence after its
superior Court, the Court of Military Appeals, set
aside two of the three offenses to which Reed had
pleaded guilty. Id. at 1115. On remand, Reed sought
to challenge the providence of his guilty plea to the
remaining charge. The Navy Court held that Reed’s
remaining conviction became final when its superior
court affirmed the conviction and the Navy Court,
therefore, had “no jurisdiction to further consider

See also Rule for Military Commission (R.M.C.) 1209, Manual
for Military Commissions (2016 ed.) (“A military commission
conviction is final when review is completed by the United States
Court of Military Commission Review and ... (b) the conviction is
affirmed by the United States Court of Appeals for the District
of Columbia Circuit and a writ of certiorari ... is denied by the
United States Supreme Court[.]”).

3

51a
whether” Reed’s conviction was “correct in law and in
fact.” Id.
In United States v. Smith, 41 M.J. 385 (C.A.A.F.
1995), the CAAF remanded the case for a fact-finding
hearing in accordance with United States v. DuBay,
17 U.S.C.M.A. 147, 37 C.M.R. 411 (1967), to resolve
concerns about the defense counsel’s prior
representation of a prosecution witness. Smith, 41
M.J. at 385. After the DuBay hearing was complete,
the record was submitted to the service court of
criminal appeals in accordance with the CAAF’s
order, and new appellate defense counsel raised and
briefed two additional assignments of error not raised
in the initial appeal before the service court. The
service court declined to consider the new issues. The
CAAF held that the lower court did not err by refusing
to consider supplemental assignments of error beyond
the scope of the remand order: “While appellant is
entitled to plenary review under Article 66, Uniform
Code of Military Justice, 10 U.S.C. § 866, he is only
entitled to one such review.” Id. at 386.
Reed and Smith are instructive. First, just as in
Reed, the appellant’s conviction is final. We,
therefore, have no authority at this stage of the
litigation to determine—again—whether that
conviction is correct in law and fact. Moreover, the
appellant has had his day in our Court; although he
is entitled to plenary review under 2009 MCA §
950f(d), “he is only entitled to one such review.”
Smith, 41 M.J. at 386. In 2011, we conducted our
plenary review of the appellant’s conspiracy
conviction pursuant 2009 MCA § 950f(d) and affirmed

52a
the judgment of conviction. Bahlul I, 820 F.Supp.2d
at 1230-31.
Thus, we have already conducted our review of the
conspiracy offense, and our judgment as to it has been
affirmed by the D.C. Circuit. The issue was not
remanded and we have no authority to review the
appellant’s claims now. Husband, 312 F.3d at 251. To
the extent the appellant’s claims are new—and not
simply a rehashing of the arguments made before this
Court in his initial appeal—they are waived. See id.
at 250 (“[A]ny issue that could have been but was not
raised on appeal is waived and thus not remanded.”)
(citing United States v. Morris, 259 F.3d 894, 898 (7th
Cir. 2001) (“Parties cannot use the accident of remand
as an opportunity to reopen waived issues.”)).
Finally, we recognize that our superior Court may
authorize us to reopen an issue by issuing a mandate
that “can reasonably be understood as permitting” us
to do so. Ben Zvi, 242 F.3d at 95. The appellant argues
that the D.C. Circuit’s mandate does just that, since
his conspiracy conviction is the “sine qua non for his
sentence.” Appellant Corrected Mot. to Dismiss 15.
We disagree. Had our superior Court wanted us to
review the appellant’s claim that conspiracy was not
an offense triable by military commission—a claim
rejected by this Court and the D.C. Circuit—they
would have remanded the case with instructions to
answer that very question. Instead, our superior
Court’s mandate was clear and unambiguous. The
Court simply directed that we determine what effect,
if any, the vacation of two convictions would have on
the appellant’s sentence. We conclude that a de novo

53a
review of the appellant’s remaining conviction is
beyond the scope of our permissible review.
B. Jurisdictional claim
Next we address whether we may consider the
appellant’s claim that the commission was not
properly convened and therefore without jurisdiction.
The appellant challenges Susan Crawford’s
appointment to the position of Convening Authority
within the Office of the Convening Authority for
Military
Commissions.
He
challenges
her
appointment on statutory and constitutional grounds,
and further argues that Ms. Crawford’s defective
appointment deprived his commission of subjectmatter jurisdiction in his case. In response, the
government first argues that even if Ms. Crawford’s
appointment was infirm, this would not create a
jurisdictional issue. Second, the government argues
that even if the challenge to Ms. Crawford’s
appointment did amount to a challenge to the
jurisdiction of his commission, we may not now
entertain this allegation of error on remand.
We find that jurisdictional challenges are within
the scope of our review and that the appellant’s
challenge to Ms. Crawford’s appointment does in fact
constitute a challenge to the commission’s subjectmatter jurisdiction for reasons we explain below.
As discussed above, the law-of-the-case doctrine
and mandate rule generally prevent a lower court
from going beyond the scope of the mandate or
addressing issues on remand not previously raised
during the initial appeal. And the appellant did not
object to Ms. Crawford’s appointment as the

54a
Convening Authority during his military commission,
during his direct appeal before our Court, or before
the D.C. Circuit. But jurisdiction is arguably different
because it involves a “court’s power to hear a given
case [and] can never be waived or forfeited.” United
States v. Munoz Miranda, 780 F.3d 1185, 1188 (D.C.
Cir. 2015) (citing Arbaugh v. Y & H Corp., 546 U.S.
500, 514 (2006)); see also Gonzalez v. Thaler, 565 U.S.
134, 141 (2012) (“Subject-matter jurisdiction can
never be waived or forfeited. The objections may be
resurrected at any point in the litigation”).
Indeed, a “charge or specification shall be
dismissed at any stage of the proceedings if ... [t]he
military commission lacks jurisdiction to try the
accused for the offense.” Rule for Military
Commission (R.M.C.) 907(b)(1), Manual for Military
Commissions (MMC) (2007 ed.); see also R.M.C.
907(b)(1), MMC (2016 ed.) (stating same). This is so
because jurisdictional limits define the foundation of
judicial authority, and subject-matter jurisdiction,
when questioned, must be decided before any other
matter. See Steel Co. v. Citizens for a Better Env’t, 523
U.S. 83, 93-95 (1998); In re Sealed Case, 131 F.3d 208,
210 (D.C. Cir. 1997) (“before we can legitimately
decide any question, whether on interlocutory or final
appeal, we, like all federal courts, ‘are under an
independent obligation to examine [our] own
jurisdiction’”) (brackets in original; citation omitted).
Neither the Supreme Court nor our superior
Court has “directly opined on how to reconcile the
mandate rule with subsequent distinct challenges to
... subject matter jurisdiction, a challenge that could
ordinarily be raised at any time and even sua sponte.”

55a
Flame S.A. v. Freight Bulk Pte. Ltd., 807 F.3d 572,
580 (4th Cir. 2015). But other circuit courts of appeals
have. In United States v. Adesida, 129 F.3d 846, 848
(6th Cir. 1997), the Sixth Circuit Court of Appeals
affirmed the district court’s judgment denying a
defendant’s motion for a new trial after he alleged—
for the first time on remand for resentencing—three
separate errors with one of the charges. Before
examining the merits of the defendant’s motion for a
new trial, the court first had to determine whether the
defendant had waived his right to raise new issues
after “there already ha[d] been a prior appeal of the
case to the Sixth Circuit, in which the[ ] issues were
not raised, and the Sixth Circuit in the prior appeal
affirmed defendant’s conviction.” Id. at 849. Applying
the law-of-the-case doctrine, the court held that the
defendant waived two of the three challenges to the
charge because they “could have been challenged in a
prior appeal, but were not.” Id. at 850. However, the
court held that the third claim—alleging that the
charge failed to charge an offense—had not been
waived because “[i]f an indictment does not charge a
cognizable federal offense, then a federal court lacks
jurisdiction to try a defendant for violation of the
offense.” Id. (citing United States v. Armstrong, 951
F.2d 626, 628 (5th Cir. 1992)). The court held that
“[l]ack of subject-matter jurisdiction may be raised at
any time in the course of a proceeding and is never
waived. Matters of jurisdiction may be raised at any
time, because if a court lacks subject-matter
jurisdiction, it does not have the power to hear the
case.” Id. (citations omitted); see also Fed. R. Crim. P.

56a
12(b)(2) (“A motion that the court lacks jurisdiction
may be made at any time while the case is pending”).
In the context of a civil case, the Supreme Court
has opined on the timeliness of objections to subjectmatter jurisdiction. In analyzing Federal Rule of Civil
Procedure (Fed. R. Civ. P.) 12(h)(3),4 the Court held
that “[t]he objection that a federal court lacks subjectmatter jurisdiction ... may be raised by a party, or by
a court on its own initiative, at any stage in the
litigation, even after trial and the entry of judgment.”
Arbaugh, 546 U.S. at 506 (emphasis added). We see
no reason to apply R.M.C. 907(b)(1)’s language
directing that a charge or specification be dismissed
“at any stage of the proceeding” for lack of jurisdiction
differently from the Supreme Court’s application of
Rule 12(h)(3)’s similar language requiring courts to
dismiss an action “at any time” for lack of
jurisdiction.5
The current rule directs that “[i]f the court determines at any
time that it lacks subject-matter jurisdiction, the court must
dismiss the action.” Fed. R. Civ. P. 12(h)(3). When the Supreme
Court decided Arbaugh, the version of the rule in effect read,
“[w]henever it appears by suggestion of the parties or otherwise
that the court lacks jurisdiction of the subject matter, the court
shall dismiss the action.” Arbaugh v. Y & H Corp., 546 U.S. 500,
506-07 (2006) (quoting Fed. R. Civ. P. 12(h)(3) (2000 ed.)). The
Rule was amended in 2007 “to make [it] more easily understood
and to make style and terminology consistent throughout the
rules. These changes are intended to be stylistic only.” Fed. R.
Civ P. 12, Committee Notes on Rules, 2007 Amendment.

4

We have found only one service court case that deals with
whether a service court of criminal appeals could entertain a
challenge to subject-matter jurisdiction after a conviction had
become final. In United States v. Claxton, 34 M.J. 1112

5

57a
Therefore, our consideration of R.M.C. 907(b)(1),
the persuasive authority from Sixth Circuit, the
Supreme Court’s analysis of similar language in
Federal Rule of Civil Procedure 12(h)(3), and “the
duty which rests on the courts, in time of war as well
as in time of peace, to preserve unimpaired the
constitutional safeguards of civil liberty,” Ex Parte
Quirin, 317 U.S. 1, 19 (1942), convince us that we
must assure ourselves that the military commission
had subject-matter jurisdiction over the charged
offense of which the appellant remains convicted. See
Hamdan v. Rumsfeld, 548 U.S. 557, 611-12 (2006)
(plurality op.); id. at 683 (Thomas, J., and Scalia, J.,
dissenting); see also In re Yamashita, 327 U.S. 1, 1720 (1946); 10 U.S.C. § 950g(d).
Of course, deciding that the appellant may raise a
jurisdictional claim is not the same thing as deciding
that this claim is jurisdictional. Even though we have
decided that jurisdictional claims are within the scope
of our review, we must ask whether the challenge to
Ms. Crawford’s appointment has jurisdictional
implications. The government argues that even if Ms.
Crawford’s
appointment
was
defective
the
commission she convened would still have had
subject-matter jurisdiction. We think, however, that

(C.G.C.M.R. 1992), the Coast Guard Court of Military Review
held that it did not have the authority to entertain the challenge.
However, the court provided no substantive analysis regarding
its lack of authority to review a subject matter-jurisdiction
challenge, and cited only one case, and it did not address the
issue. Thus, we do not find Claxton persuasive for our purposes.

58a
the appellant’s claim does go to the jurisdiction of
appellant’s commission.
The commission’s jurisdiction in this case is
defined first by 2006 MCA § 948d(a), which provides
that “[a] military commission under this chapter shall
have jurisdiction to try any offense made punishable
by this chapter or the law of war when committed by
an alien unlawful enemy combatant before, on, or
after September 11, 2001.” The government argues
that this limits jurisdictional issues to just two areas:
the accused’s status as a person subject to Chapter
47a, and whether the offenses are made punishable
by Chapter 47a. Since the appellant’s motion to
dismiss does not implicate either his “status or the
offenses,” the government contends that the appellant
“incorrectly couches [his] argument in jurisdictional
terms.”6 We disagree.
Because Congress used the UCMJ as a model for
the 2006 MCA, we once again turn to the UCMJ and
case law interpreting it for persuasive guidance on
how we should interpret provisions of the 2006 MCA.
See 2006 MCA § 948b(c) (court-martial case law is
instructive but not binding). Two UCMJ articles with
close analogues to relevant MCA provisions inform
our analysis. The first article, Article 18, UCMJ (10
U.S.C. § 818) defines the jurisdiction of general
courts-martial in language functionally identical to
2006 MCA § 948d(a)’s treatment of military
commission jurisdiction. Article 18, UCMJ provides
Government Opposition to Motion to Dismiss (Aug. 6, 2018), at
8 (quoting United States v. Al-Nashiri, 191 F.Supp.3d 1308, 1316
(CMCR 2016) ) (brackets and ellipses omitted).

6

59a
that “general courts-martial have jurisdiction to try
persons subject to this chapter for any offense made
punishable by this chapter ...”—language essentially
identical to that in the analogous MCA provision. The
second UCMJ article, Article 22, (10 U.S.C. § 822),
sets forth the officials and officers who may convene
general courts-martial. This article is analogous to
2006 MCA § 948h, and this section authorizes “the
Secretary of Defense or ... any officer or official of the
United States designated by the Secretary” to
convene military commissions.
Military courts construing Articles 18 and 22,
UCMJ have for years uniformly held that courtsmartial convened by an improperly appointed
convening authority are “without jurisdiction to
proceed and, hence, ... a nullity.” United States v.
Cunningham, 21 U.S.C.M.A. 144, 146, 44 C.M.R. 198,
200 (1971) (Secretary of the Navy improperly
delegated to another officer authority to appoint
special court-martial convening authorities); see also,
e.g., United States v. Greenwell, 19 U.S.C.M.A. 460,
463, 42 C.M.R. 62, 65 (1970) (“[W]e believe that [the
Secretary of the Navy’s] personal action is an absolute
prerequisite, we must hold that the court-martial
which convicted this accused was without jurisdiction
to proceed and, hence, was a nullity.”). This
determination reflects the fact that “[i]n the military
justice system there are no standing courts.” Loving
v. United States, 62 M.J. 235, 254 (C.A.A.F. 2005).
Indeed, “[a] court-martial is a creature of an order
promulgated by an authorized commander ... which
convenes, or creates, the court-martial entity.
Without such an order, there is no court.” United

60a
States v. Ryan, 5 M.J. 97, 101 (C.M.A. 1978) (citing
Article 22, UCMJ). So while Article 18, UCMJ, may
define the jurisdiction of a general court-martial in
terms of the type of offense and the status of the
offender—without reference to the convening
authority or referral of charges—it presupposes that
a general court-martial actually exists. Thus,
“[j]urisdiction depends upon a properly convened
court, composed of qualified members chosen by a
proper convening authority, and with charges
properly referred.” United States v. Adams, 66 M.J.
255, 258 (C.A.A.F. 2008).
The similarity of these two UCMJ articles and
their MCA counterparts—in both language and in
function—is an important indication of congressional
intent. See Lorillard, 434 U.S. at 580 (“[W]here, as
here, Congress adopts a new law incorporating
sections of a prior law, Congress normally can be
presumed to have had knowledge of the
interpretation given to the incorporated law, at least
insofar as it affects the new statute.”). We find that
Congress intended reviewing courts to analyze the
jurisdiction of military commissions in the same
manner military courts review the jurisdiction of
courts-martial.
Like
courts-martial,
military
commissions are ad hoc tribunals that depend on the
exercise of an empowered official’s authority for their
existence. A military commission not convened by an
official with the authority to convene one is really no
commission at all and is without jurisdiction of any
sort.
The regulations implementing the MCA’s
jurisdictional requirements reinforce our conclusion

61a
that a military commission purportedly convened by
one who lacks the authority to convene them lacks
jurisdiction to try anyone under the MCA. Rule for
Military Commission (R.M.C.) 201(b)(3), MMC (2007,
ed.) was in effect at the time the appellant’s charges
were referred and tried. It reads: “for a military
commission to have jurisdiction: (A) The military
commission must be convened by an official
empowered to convene it;” and “(C) Each charge
before the military commission must be referred to it
by a competent authority[.]”7 These requirements
mirror Rule for Courts-Martial (R.C.M.) 201(b),
Manual for Courts-Martial (MCM), United States,
(2019 ed.), which prescribes the requirements for
court-martial jurisdiction.8
We conclude that the appellant’s challenge to Ms.
Crawford’s
authority
to
convene
military
commissions is a jurisdictional challenge, and that as
such it is properly within the scope of our review.9
The 2016 version of the MMC is currently in effect, and R.M.C.
201(b)(1) and (3), MMC (2016 ed.), contain these same two
provisions.
8 R.C.M. 201(b) requires that “for a court-martial to have
jurisdiction ... (1) The court-martial must be convened by an
official empowered to convene it;” and “(3) Each charge before
the court-martial must be referred to it by competent
authority[.]”
9 The government argues, citing Freytag v. Commissioner, 501
U.S. 868 (1991) and Lucia v. SEC, ––– U.S. ––––, 138 S.Ct. 2044
(2018), that appellant’s Appointments Clause challenge to Ms.
Crawford as the Convening Authority is not a jurisdictional
challenge, and, in any event, the challenge was forfeited because
it was not timely raised. In other contexts, those arguments
appear to have significant force. See Intercollegiate Broad. Sys.,
7

62a
II. Motion to Dismiss for Lack of SubjectMatter jurisdiction
Having determined that the appointment of the
convening authority implicates the military
commission’s subject-matter jurisdiction to try the
appellant, we next turn to the merits of the
appellant’s motion and determine whether Ms.
Crawford was properly appointed as the Convening
Authority. The appellant contends that Ms. Crawford
was improperly appointed as the Convening
Authority, and thus his military commission lacked
subject-matter jurisdiction to try him. Specifically,
the appellant’s argument is two-fold. First he argues
that pursuant to the Appointments Clause, the
convening authority is a principal officer that must be
appointed by the President with the advice and
consent of the Senate. Alternatively, he argues that
2006 MCA § 948h requires that the convening
authority for military commissions be either “the
Inc. v. Copyright Royalty Bd., 574 F.3d 748, 755-56 (D.C. Cir.
2009) (“Royalty Logic has forfeited its [Appointments Clause]
argument by failing to raise it in its opening brief.... An
Appointments Clause challenge is ‘nonjurisdictional,’ [Freytag,
501 U.S.] at 878 (majority opinion), and thus not subject to the
axiom that jurisdiction may not be waived”). Here, however, the
military commission does not exist and is without any
jurisdiction whatsoever unless and until convened by someone
with authority to convene it. If there is a defect in Ms. Crawford’s
appointment as convening authority, then she was powerless to
convene the commission. The nature of the defect does not
matter. Accordingly, the appellant’s Appointments Clause
challenge to Ms. Crawford—which we reject—is merely the
predicate to appellant’s claim that the military commission
lacked jurisdiction to try him.

63a
Secretary of Defense or any officer or official of the
United States designated by the Secretary of Defense”
and that Ms. Crawford was neither an “officer” nor an
“official” when she was appointed by the Secretary.
We review appellant’s claim that his military
commission lacked subject-matter jurisdiction de
novo. Paralyzed Veterans of Am. v. United States
DOT, 909 F.3d 438, 443 (D.C. Cir. 2018); Schnitzler v.
United States, 761 F.3d 33, 37 (D.C. Cir. 2014).
A. Background
One week after the September 11, 2001, attacks on the
United States, Congress passed the Authorization for Use
of Military Force resolution (AUMF). Pub. L. No. 107-40,
115 Stat. 224 (2001). The AUMF authorized the President
to “use all necessary and appropriate force against those
nations, organizations, or persons he determines planned,
authorized, committed, or aided the terrorist attacks.” Id.
In a November 13, 2001 order the President “vested in the
Secretary of Defense the power to appoint military
commissions to try individuals subject to the Order,” and
that power was then delegated to the Appointing
Authority. Hamdan, 548 U.S. at 568-69.10
On January 5, 2007, Deputy Secretary of Defense
Gordon England established the position of Director,
Office of the Convening Authority, as a “special
sensitive” position, and on January 18, 2007, that
position was certified.11 The position was designated
as a general, managerial position in the Senior
The Appointing Authority was the predecessor to the
Convening Authority.
11 Appellant Corrected Mot. to Dismiss at Attach. B (Position
Description (Jan. 5, 2007)).
10

64a
Executive Service.12 On January 31, 2007, Ms.
Crawford was appointed as a limited-term appointee
in the Senior Executive Service as the Director, Office
of the Convening Authority.13
On February 6, 2007, Secretary of Defense Robert
M. Gates appointed Ms. Crawford, “currently the
Director of the Office of the Convening Authority” as
“the
Convening
Authority
for
Military
14
Commissions.” On April 27, 2007, the Deputy
Secretary of Defense promulgated the Regulation for
Trial by Military Commission (RTMC). The 2007
RTMC, paragraph 2-1 provides:
The Office of the Convening Authority
for Military Commissions is established
in the Office of the Secretary of Defense
under the authority, direction, and
Id. See also 5 U.S.C. § 3132(a)(2) (A Senior Executive Service
position is a senior position in an agency, “which is not required
to be filled by an appointment by the President by and with the
advice and consent of the Senate, and in which the employee: (A)
directs the work of an organizational unit; (B) is held
accountable for the success of one or more specific programs or
projects; (C) monitors progress toward organizational goals and
periodically evaluate[s] and makes appropriate adjustments to
such goals; (D) supervises the work of employees other than
personal assistants; or (E) otherwise exercises important policymaking, policy-determining, or other executive functions[.]”).

12

Appellant Corrected Mot. to Dismiss at Attach. C (Notification
of Personnel Action (effective Jan. 31, 2007)). See also 5 U.S.C. §
3132(a)(5) (A “limited term appointee” is “an individual
appointed under a nonrenewable appointment for a term of 3
years or less to a Senior Executive Service position the duties of
which will expire at the end of such term.”).
14 Appellant Corrected Mot. to Dismiss at Attach. A.
13

65a
control of the Secretary of Defense. The
Office of the Convening Authority shall
consist of the Director of the Office of the
Convening Authority, the Convening
Authority ....15
On February 26, 2008, Ms. Crawford convened a
military commission to try Al Bahlul. Al Bahlul was
tried on May 7, August 15, September 24, and October
27 to November 3, 2008. On June 3, 2009, Ms.
Crawford approved the findings and sentence of Al
Bahlul’s military commission. She served as
Convening Authority for military commissions until
January 30, 2010.16
B. Discussion
The appellant challenges Ms. Crawford’s
appointments as the Director, Office of the Convening
Authority and Convening Authority, on statutory and
constitutional grounds. We first address whether Ms.
Crawford’s appointments comply with 2006 MCA §
948h, and then consider whether the Constitution’s
requirements were satisfied.
(1) Appointment of Convening Authority under
2006 MCA § 948h
The RTMC was not in existence when Ms. Crawford was
appointed as either the Director, Office of the Convening
Authority or as the Convening Authority. It was in effect when
Ms. Crawford, as Convening Authority referred Al Bahlul’s
charges to trial by military commission. The 2007 version of the
RTMC describes the duties and responsibilities of the Office of
the Convening Authority.
16 Appellant Corrected Mot. to Dismiss at Attach. E, (Notification
of Personnel Action (effective Jan. 30, 2010)).
15

66a
Section 948h of the 2006 MCA states “Military
commissions under [10 U.S.C. §§ 948a et seq.] may be
convened by the Secretary of Defense or by any officer
or official of the United States designated by the
Secretary for that purpose.”17 At the time Ms.
Crawford was appointed to be the Convening
Authority, she was already the Director, Office of the
Convening Authority. First, we assess whether Ms.
Crawford was properly appointed to the position of
Director, Office of the Convening Authority, and then
we determine whether her appointment to this
position resulted in her being an “officer or official of
the United States.”
(a) Authority of Deputy Secretary of
Defense to appoint the Director, Office of the
Convening Authority
As noted above, Ms. Crawford was appointed by
the Deputy Secretary of Defense on January 31, 2007,
as Director, Office of the Convening Authority. Then,
six days later, the Secretary of Defense appointed her
to be the Convening Authority. Subject to the
direction of the President, the Secretary of Defense
has “has authority, direction, and control over the
Department of Defense.” 10 U.S.C. § 113(b).
Consequently, “[u]nless specifically prohibited by law,
the Secretary may, without being relieved of his
responsibility, perform any of his functions or duties,
or exercise any of his powers through, or with the aid
of, such persons in, or organizations of, the
(Emphasis added). 2009 MCA § 948h, Pub. L. No. 111-84, 123
Stat. 2576, contains the same provision as 2006 MCA § 948h,
Pub. L. No. 109-366, 120 Stat. 2600.

17

67a
Department of Defense as he may designate.” 10
U.S.C. § 113(d). Part of the Secretary’s duties include
ensuring the employment of necessary civilian
employees “to carry out the functions and activities of
the department.” 10 U.S.C. § 129(b).
“The Deputy Secretary shall perform such duties
and exercise such powers as the Secretary of Defense
may prescribe.” 10 U.S.C. § 132(b). The Secretary of
Defense delegated to the Deputy Secretary of Defense
the “full power and authority to act for the Secretary
of Defense and to exercise the powers of the Secretary
of Defense upon any and all matters concerning which
the Secretary of Defense is authorized to act pursuant
to law.”18 The Deputy Secretary of Defense is
authorized to make “specific” further delegations as
necessary.19 This includes delegating authority to the
Convening Authority and the Director, Office of the
Convening Authority. Nothing in the 2006 MCA, any
version of the MMC, or any version of the RTMC
specifically or expressly limits the authority of the
Deputy Secretary of Defense to exercise the authority
delegated to him with respect to matters affecting
military commissions that we address.
Accordingly, the Deputy Secretary had authority
to appoint Ms. Crawford as the Director, Office of the
Convening Authority.
(b) Status of the position Director, Office of the
Convening Authority

Dept. of Def. Dir. 5105.02, Deputy Secretary of Defense, ¶ 1.2
(Jan. 9, 2006).
19 Id. at ¶ 1.3.
18

68a
Under 2006 MCA § 948h only the Secretary of
Defense or an “officer or official of the United States
designated by the Secretary” is empowered to convene
a military commission. The appellant argues that Ms.
Crawford was neither an officer nor an official of the
United States but rather merely an employee of the
United States ineligible to be appointed as the Convening
Authority pursuant to § 948h. Therefore, we next
examine whether, as Director, Office of the Convening
Authority, Ms. Crawford was an “officer or official of
the United States” or merely a government employee.
Citing 10 U.S.C. § 101(b)(1), the appellant argues
that for purposes of Title 10, officer means only “a
commissioned or warrant officer.” Appellant
Corrected Mot. to Dismiss 9. Similarly, he argues that
an official is simply one who “holds or is invested with
an office and is roughly synonymous with the term
officer.” Id. at 9-10 (quoting Tanvir v. Tanzin, 894
F.3d 449, 461 (2d Cir. 2018) (internal quotation marks
omitted)). The appellant points to the UCMJ and
argues that “Congress made the ability to serve as a
convening authority, an ancillary duty germane to the
most senior positions of authority and command” and
cannot, therefore, be delegated to mere government
employees. Id. at 10 (citing United States v.
Grindstaff, 45 M.J. 634, 636 (N-M. Ct. Crim. App.
1997)). As a result, the appellant contends that the
person designated to serve as Convening Authority in
the Secretary’s stead—whether a military officer or a
civilian official—must “by statute, be an officer of the
United States for Appointments Clause purposes.” Id.
From the context of 2006 MCA § 948h, it is
unlikely Congress intended officers and officials to

69a
have the same meaning. We apply the rule against
surplusage, that is, we “‘give effect, if possible, to
every clause and word of a statute.’” TRW Inc. v.
Andrews, 534 U.S. 19, 31 (2001) (quoting Montclair v.
Ramsdell, 107 U.S. 147, 152 (1883)). As a result, we
interpret the term “officers or officials of the United
States” as describing two categories of individuals—
officers and officials—each with a distinct meaning.
See McDonnell v. United States, ––– U.S. ––––, 136
S.Ct. 2355, 2369 (2016) (finding that two similar
words have distinct meanings, which is consistent
“with the presumption ‘that statutory language is not
superfluous.’” (citation omitted)). We should avoid a
reading that would render any portion of the statute
inoperative or superfluous.
Title 10 U.S.C.A., § 101(b) defines certain terms
“relating to military personnel.” “The term ‘officer’
means a commissioned or warrant officer.” §
101(b)(1). Appellant contends that officer, as used in
2006 MCA § 948h, refers to a military officer and not
a civilian official. Another reading of the statute is
that the definition applies only if the term officer,
contextually, refers to “military personnel.”
Accordingly, perhaps officer as used in 2006 MCA §
948h means “any appointee exercising significant
authority pursuant to the laws of the United States ...
and must, therefore, be appointed in the manner
prescribed by [the Appointments Clause].” Buckley v.
Valeo, 424 U.S. 1, 126 (1976). “The Appointments
Clause provides the exclusive process for appointing
‘Officers of the United States.’” Lucia v. SEC, ––– U.S.
––––, 138 S.Ct. 2044, 2056 (2018) (Thomas &
Gorsuch, JJ., concurring). Pursuant to the

70a
Appointments Clause, “principal officers must be
nominated by the President and confirmed by the
Senate, [and] Congress can authorize the
appointment of ‘inferior Officers’ by ‘the President
alone,’ ‘the Courts of Law,’ or ‘the Heads of
Departments.’” Id. (quoting U.S. Const., Art. II, § 2,
cl. 2). Since Ms. Crawford was not appointed as
Director, Office of Military Commissions by the
President, a Court of Law, or the Head of a
Department, her appointment to that position would
not be consistent with the Appointments Clause. But
for the purposes of our inquiry here, we need not
decide whether Ms. Crawford was an officer for
purposes of § 948h because we specifically find that as
Director, Office of Military Commissions she was an
“official of the United States.”
First, we reject the appellant’s contention that an
“official of the United States” means “an officer of the
United States for Appointments Clause purposes.”
Appellant Corrected Mot. to Dismiss 10. The
appellant provides no case law or other authoritative
support for this assertion. As we noted above, the
term “official” in the statute must mean something
different that the term “officer.” Had Congress
desired to limit delegation of convening authority
duties to only existing “officers of the United States
for Appointments Clause purposes,” it could have
expressly done so. Alternatively, it could have simply
limited appointment to “officers of the United States,”
and we would then concern ourselves with whether
this term embraced both military officers and those
civilian officers “exercising significant authority
pursuant to the laws of the United States.” Buckley,

71a
424 U.S. at 126. But Congress included the term
“official.” In United States v. Germaine, 99 U.S. 508
(1879), the Supreme Court held that a law
criminalizing extortion by “officers of the United
States” did not apply to a government physician
because he was not appointed pursuant to the
Appointments Clause and was not, therefore, an
“officer of the United States.” In reaching this
conclusion, the Court explained that had Congress
intended the law to reach any “person in the service
or employment of the government,” then “words to
that effect would be used.” Id. at 510. In the 2006
MCA, Congress did use words to that effect. By
including official in § 948h, Congress expressly
broadened the pool of people beyond “Officers of the
United States” that the Secretary could designate as
the convening authority.
Next, because the term “official of the United
States” is not defined in the 2006 MCA or elsewhere
within Title 10, we “construe it in accord with its
ordinary or natural meaning.” Smith v. United States,
508 U.S. 223, 228 (1993). When a statute fails to
define terms, a dictionary may be an appropriate
source for determining a word’s ordinary meaning.
See Muscarello v. United States, 524 U.S. 125, 128
(1998) (emphasizing first dictionary definition as
supplying “the word’s primary meaning”); Noel
Canning v. NLRB, 705 F.3d 490, 505, 509 (D.C. Cir.
2013) (applying dictionary definitions). BLACK’S LAW
DICTIONARY defines official as “[s]omeone who holds
or is invested with a public office; a person elected or
appointed to carry out some portion of a government’s

72a
sovereign powers.” Official, BLACK’S LAW DICTIONARY
[1259] (10th ed. 2014).
Support for this broad definition of “official of the
United States” is found in the term’s widespread use
in other federal statutes. For example, an “official of
the United States” may be authorized to inspect
poultry and eggs. See 21 U.S.C. §§ 453(k), 1033(k)(1).
Likewise, no person in charge of a tuna fishing vessel
shall “fail to stop upon being hailed by a duly
authorized official of the United States.” 16 U.S.C. §
957(b). The U.S. Code is replete with other
examples.20 Even within Title 10, the term is used to
describe those individuals who determine whether
information is classified. 10 U.S.C. § 801(15)(A). In
sum, the term “official of the United States” is widely
See, e.g., 16 U.S.C. § 6906(a)(13) (making it unlawful “to fail to
stop a vessel upon being hailed and instructed to stop by a duly
authorized official of the United States ....”); 18 U.S.C. § 201(a)(1)
(“[T]he term ‘public official’ [includes] ... an officer or employee
or person acting for or on behalf of the United States, or any
department, agency or branch of Government thereof, including
the District of Columbia, in any official function, under or by
authority of any such department, agency, or branch of
Government, or a juror”); 31 U.S.C. § 3341(a) (“A disbursing
official of the United States Government may sell [or dispose of]
a Government [security] ..., only if the official deposits ... the
proceeds in the Treasury or with a depositary for the credit of
the Government.”); 31 U.S.C. § 3342(a)(3)(B) (“A disbursing
official of the United States Government may” cash certain
checks of U.S. citizens overseas.); 46 U.S.C. § 31322(f)(1)(D) (“A
mortgage trustee may hold ... evidence of indebtedness, secured
by a mortgage of the vessel to the mortgage trustee, provided
that the mortgage trustee-- ... (D) is subject to supervision or
examination by an official of the United States Government or a
State”).

20

73a
used to describe the government agents and
employees doing a myriad of often mundane acts that
carry out some measure of sovereign power, but
whose duties do not include “exercising significant
authority pursuant to the laws of the United States”
and who are, therefore, not officers of the United
States for Appointments Clause purposes. Buckley,
424 U.S. at 126.
As the Director, Office of the Convening Authority,
Ms. Crawford held a special sensitive, national
security position and had authority to carry out some
portion of the federal government’s sovereign powers.
Ms. Crawford was a member of the Senior Executive
Service, and she had a responsibility to ensure that
the executive management of the Office of the
Convening Authority was responsive to the needs,
policies, and goals of the nation.
We conclude, therefore, that Ms. Crawford, as the
Director, Office of the Convening Authority, was an
official of the United States when the Secretary of
Defense designated her as the Convening Authority.
We next examine Ms. Crawford’s position as
Convening Authority.21
(2) Status of the Convening Authority position
under the Appointments Clause

We distinguish between Ms. Crawford’s status as Director,
Office of the Convening Authority, a Senior Executive Service
position within the Department of Defense, discussed supra part
II.B.(1)(b), and her appointment as the Convening Authority for
Military Commissions. Though occupied by the same individual,
the positions are distinct.

21

74a
As a threshold matter, we have no doubt that
while serving as the Convening Authority and
convening the appellant’s military commission and
taking action in approving its findings, Ms. Crawford
was acting as an “officer of the United States” for
Appointments Clause purposes. First, Ms. Crawford,
as the Convening Authority, held a “continuing office
established by law,” specifically § 948h. 22 Lucia, 138
S.Ct. at 2053. Second, she exercised “significant
discretion” in “carrying out the ... important
functions,” of convening the appellant’s military
commission, referring his charges to trial, assigning
members, and taking action on the findings and
sentence. Id. As the Supreme Court recently made
clear in Lucia, an adjudicative official with the scope
of judicial and prosecutorial discretion enjoyed by the
convening authority must be appointed in conformity
with the Appointments Clause. Id. at 2052-53.
Again, while principal officers must be nominated
by the President and confirmed by the Senate,
Congress can authorize the heads of the
department—such as the Secretary of Defense—to
appoint inferior officers. The question before us then
is whether the convening authority must be a
principal officer. The appellant contends that given
the nature of the convening authority’s responsibility
and the “significant and unreviewable discretion” the
The Office of Legal Counsel has defined a “continuing” federal
office to be “either that the position is permanent or that, even
though temporary, it is not personal, transient, or incidental.”
Officers of United States within the of Meaning of the
Appointments Cl., 2007 OLC LEXIS 3, *10-11, 73-74 (citations
omitted; internal quotation marks omitted).

22

75a
convening authority exercises, the convening
authority is a principal officer that must be
nominated by the President and confirmed by the
Senate. Appellant Corrected Mot. to Dismiss 13. And
since Ms. Crawford was only appointed by the
Secretary of Defense, the appellant argues, her
appointment was invalid and she could not, therefore,
convene the appellant’s military commission.
We recognize that “[t]he line between ‘inferior’
and ‘principal’ officers is one that is far from clear.”
Morrison v. Olson, 487 U.S. 654, 671 (1988). A review
of Appointments Clause challenges to courts-martial
personnel is instructive. The Supreme Court first
examined an Appointments Clause challenge to a
court-martial in Weiss v. United States, 510 U.S. 163
(1994). In Weiss, the petitioner argued that the trial
and appellate judges that presided over his courtmartial and subsequent appeal were “principal
officers” and were not appointed pursuant to the
Appointments Clause. The Court held that because
the challenged military judges were all commissioned
officers who had already been appointed by the
President with the advice and consent of the Senate,
they did not require a second appointment as a
military judge. Id. at 176. In reaching this conclusion,
Chief Justice Rehnquist, writing for the majority, did
not distinguish between “inferior” or “principal”
officers. However, Justice Souter, in his concurrence,
opined that “[s]ince the chosen method for selecting
military judges shows that neither Congress nor the
President thought military judges were principal
officers, and since in the presence of doubt deference
to the political branches’ judgment is appropriate, ...

76a
military judges are inferior officers for purposes of the
Appointments Clause.” Id. at 194 (Souter, J.
concurring).
Since Weiss, the CAAF and the service courts of
criminal
appeals
have
routinely
rejected
Appointments Clause challenges to convening
authorities, military judges, and military appellate
judges from performing their duties under the UCMJ.
See, e.g., United States v. Akbar, 74 M.J. 364, 415
(C.A.A.F. 2015) (challenging appellate judges); United
States v. Hennis, 75 M.J. 796, 853 (A. Ct. Crim. App.
2016) (en banc) (same); United States v. Parker, 71
M.J. 594, 630 & n.44 (N-M. Ct. Crim. App. 2012)
(challenging the military judge and convening
authority); United States v. Grindstaff, 45 M.J. 634,
636 (N-M. Ct. Crim. App. 1997) (per curiam)
(challenging the military judge, appellate judges, and
the convening authority); United States v. Grey, 1997
CCA LEXIS 198, *20 & n.9 (N-M. Ct. Crim. App.
1997) (same). These cases largely relied on the fact
that the “officer” being challenged was a
commissioned officer who did not require a second
appointment.
However, in Edmond v. United States, 520 U.S.
651, 666 (1997), the Supreme Court held that civilian
judges on the Coast Guard Court of Criminal Appeals
were “inferior officers” under the Appointments
Clause. The Court first noted the “importance of the
responsibilities that [the] judges bear,” but explained
that the “exercise of ‘significant authority pursuant to
the laws of the United States’ marks, not the line
between principal and inferior officer for
Appointments Clause purposes, but rather ... the line

77a
between officer and non-officer.” Id. at 662 (quoting
Buckley, 424 U.S. at 126). Therefore, we must look
beyond the mere scope and importance of the
convening authority’s duties to determine whether
the convening authority is a principal or inferior
officer.
In concluding that civilian Coast Guard appellate
judges were inferior officers, the Court emphasized
two factors. First, the appellate judges are supervised
by other Executive Department officers and by CAAF,
an Executive Department entity. Id. at 664 (citations
omitted). This “administrative supervision of these
judges by the Judge Advocate General of the Coast
Guard, combined with his power to control them by
removal from a case, establishes that the
intermediate appellate judges here have the
necessary superior” to render them inferior officers.
Id. at 667 (Souter, J. concurring). Second, another
executive branch entity, CAAF, has the power to
reverse the judges’ decisions. Id. at 665 (citations
omitted). Thus, the judges did not have the “power to
render a final decision on behalf of the United States
unless permitted to do so by other Executive officers.”
Id.
In addressing an Appointments Clause question
involving Copyright Royalty Judges (CRJ), our
superior Court held that CRJs were principal officers,
but noted that the power of a supervising officer to
remove them without cause would be sufficient to
conclude that those judges were “inferior officers”
notwithstanding additional Edmonds factors that
tended to make them principal officers. Intercollegiate
Broad. Sys., Inc. v. Copyright Royalty Bd., 684 F.3d

78a
1332, 1341 (D.C. Cir. 2012). See also In re Al-Nashiri,
791 F.3d 71, 83 (D.C. Cir. 2015) (observing that “The
CRJs’ for-cause removal protection is not ‘generally
consistent with the status of an inferior officer.’”).
Thus, a supervising officer’s power to terminate
without cause may be dispositive. We begin there.
The convening authority for military commissions
is both appointed by the Secretary of Defense, 2006
MCA § 948h, and subject to removal by the Secretary
without cause. See Myers v. United States, 272 U.S.
52, 119 (1926) (“the power of appointment carried
with it the power of removal”); Kalaris v. Donovan,
697 F.2d 376, 401 (D.C. Cir. 1983) (“The long standing
rule relating to the removal power is that, in the face
of congressional silence, the power of removal is
incident to the power of appointment.”). “The power
to remove officers ... is a powerful tool for control.”
Edmond, 520 U.S. at 664. In fact, the Secretary of
Defense recently exercised this powerful tool and
removed the convening authority.23 Thus, the
Secretary of Defense had the power to remove Ms.
Crawford as the Convening Authority without cause.
This power alone is instructive if not dispositive. But
there are also additional Edmonds factors that support
a conclusion that Ms. Crawford is an inferior officer.
The convening authority acts “under the
authority, direction, and control of the Secretary of
Defense.” 2007 RTMC, paragraph 2-1. Ms. Crawford
See Carol Rosenberg, Secretary of Defense fires Guantanamo
war court overseer, Miami Herald (Feb. 5, 2018),
https://www.miamiherald.com/news/nationworld/world/americas/guantanamo/article198456714.html (last
visited Mar. 10, 2019).

23

79a
as the Convening Authority, therefore, was
“supervised at some level” by an officer “appointed by
presidential nomination with the advice and consent
of the Senate”—the Secretary of Defense. Edmond,
520 U.S. at 663. This supervision includes regulations
promulgated by the Secretary, pursuant to 2006 MCA
§ 949a, that directly control the convening authority’s
substantive conduct in certain respects and reserves
to the Secretary the right to disregard and supersede
certain of her actions.24 Thus, as Justice Souter
pointed out in Edmonds, administrative supervision
and the power to remove renders the convening
authority an inferior officer. Edmond, 520 U.S. at 667
(concurring opinion).
Finally, like the Coast Guard appellate judges in
Edmond, whose decisions were subject to review by
the CAAF, a court within the executive branch, the
convening authority’s decisions are subject to review
by our Court—another executive branch court.
Therefore, the convening authority has “no power to
See, e.g., R.M.C. 104(a)(1) (2007) (prohibiting a convening
authority from censuring, reprimanding or admonishing the
military commission, its members or the military judge); R.M.C.
407 (2007) (prescribing rules for forwarding and disposition of
charges). If the Secretary of Defense disagrees with the
convening authority’s referral decision, he can refer the case to
trial by military commission. See R.M.C. 601(f) (2007) (“The
Secretary of Defense may cause charges, whether or not referred,
to be transmitted to him for further consideration, including, if
appropriate, referral.”); see also R.M.C. 601(f) (2016) (“Except as
otherwise provided in these rules, a superior competent
authority may cause charges, whether or not referred, to be
transmitted to the authority for further consideration, including,
if appropriate, referral.”).

24

80a
render a final decision on behalf of the United States
unless permitted to do so by other executive officers.”
Id. at 665.
Consequently, we conclude
authority is an inferior officer.

the

convening

Since Congress authorized the appointment of the
convening authority by the Secretary of Defense in
2006 MCA § 948h, and the Secretary of Defense did
appoint Ms. Crawford as the Convening Authority,
she had authority, as an inferior officer of the United
States to convene the appellant’s military
commission. Therefore, the commission had subjectmatter jurisdiction to try the appellant for his
offenses.
III. Effect of Vacatur on the Sentence
The D.C. Circuit affirmed the appellant’s
conviction under Charge I (conspiracy to commit war
crimes) and vacated his convictions under Charges II
(solicitation of others to commit war crimes) and III
(providing material support for terrorism). We must
now decide what effect, if any, our superior Court’s
vacatur of these two charges has on the appellant’s
sentence. Once again, we turn to court-martial
jurisprudence to examine the scope of our authority.
First, in Jackson v. Taylor, 353 U.S. 569 (1957),
the Supreme Court upheld the authority of military
appellate courts to conduct sentence reassessments.
Jackson had been convicted at court-martial of
premeditated murder and attempted rape, and had
received a sentence of life in prison. Id. at 570. After
the “board of review” (the precursor to the service
courts of criminal appeals) set aside the murder

81a
conviction, it reassessed the sentence and affirmed a
sentence of 20 years’ imprisonment. Id. at 572.
Jackson argued before the Supreme Court that he
should have been afforded a sentence rehearing. Id.
In rejecting Jackson’s argument, the Supreme Court
relied on the board of review’s statutory authority,
pursuant to Article 66(c), UCMJ as it then existed to
“affirm only ... the sentence or such part or amount of
the sentence, as it finds correct in law and fact and
determines, on the basis of the entire record, should
be approved.” Id. at 573. The Court also observed the
difficulties inherent in court-martial sentence
rehearings, explaining that “[a] court-martial has
neither continuity nor situs and often sits to hear only
a single case. Because of the nature of military
service, the members of a court-martial may be
scattered throughout the world within a short time
after a trial is concluded.” Id. at 579.
Next, in United States v. Sales, 22 M.J. 305
(C.M.A. 1986), the Court of Military Appeals further
explained the authority of the service courts of
criminal appeal to reassess a sentence because of
prejudicial error:
[The court’s] task differs from that which
it performs in the ordinary review of a
case. Under Article 66, [UCMJ], 10
U.S.C. § 866, the Court of [Criminal
Appeals] must assure that the sentence
adjudged is appropriate for the offenses
of which the accused has been convicted;
and, if the sentence is excessive, it must
reduce the sentence to make it
appropriate. However, when prejudicial

82a
error has occurred in a trial, not only
must the Court of [Criminal Appeals]
assure that the sentence is appropriate
in relation to the affirmed findings of
guilty, but also it must assure that the
sentence is no greater than that which
would have been imposed if the
prejudicial error had not been
committed. Only in this way can the
requirements of Article 59(a), UCMJ, 10
U.S.C. § 859(a), be reconciled with the
Code provisions that findings and
sentence be rendered by the courtmartial, see Articles 51 and 52, UCMJ,
10 U.S.C. §§ 851 and 852, respectively.
Id. at 307-08.
Finally, in United States v. Winckelmann, 73 M.J.
11 (C.A.A.F. 2013), the CAAF, building upon Jackson
and Sales, announced factors or “points of analysis”
for the service courts of criminal appeals “to consider
when determining whether to reassess a sentence or
order a rehearing.” Id. at 15. These four, “illustrative,
but not dispositive” factors are:
(1) Whether there has been a “dramatic
change[ ] in the penalty landscape or
exposure.” Id. at 15.
(2) Whether sentencing was by members
or a military judge alone. Id. at 16.
“(3) Whether the nature of the
remaining
offenses
capture
the
gravamen of criminal conduct included
within the original offenses ... and

83a
whether significant or aggravating
circumstances addressed at the courtmartial remain admissible and relevant
to the remaining offenses.” Id.
“(4) Whether the remaining offenses are
of the type [with which appellate judges]
should have the experience and
familiarity ... to reliably determine what
sentence would have been imposed at
trial.” Id.
We find Winckelmann persuasive and adopt its
factors for determining whether we can reassess the
appellant’s sentence. First, our responsibility in 2009
MCA § 950f(d) to “affirm only ... the sentence or such
part or amount of the sentence, as the Court finds
correct in law and fact and determines, on the basis of
the entire record, should be approved” is nearly
identical to the service courts of criminal appeals’ task
under Article 66(c), UCMJ. Second, 2009 MCA § 950a
mirrors Article 59, UCMJ, and therefore our ability to
reassess a sentence necessarily includes the
requirement that any reassessed sentence “is no
greater than that which would have been imposed if
the prejudicial error had not been committed.” Sales,
22 M.J. at 308. We find that we may properly reassess
the appellant’s sentence if we are able to “reliably
determine” that, absent the convictions for
solicitation of others to commit war crimes and
providing material support to terrorism, the
“sentence would have been at least of a certain
magnitude.” See Winckelmann, 73 M.J. at 15.

84a
Under all the circumstances presented, we find
that we can reassess the appellant’s sentence, and it
is appropriate for us to do so. Although sentencing by
the military judge alone was not an option under the
2006 MCA, the other factors favor reassessment by
this Court. First, the penalty landscape has not
dramatically changed. Although two of the three
offenses for which the appellant was convicted have
been vacated, the maximum punishment for the
appellant’s
remaining
conviction
remains
confinement for life.
Second, and most importantly, the remaining
offense—conspiracy to commit war crimes—captures
the gravamen of the criminal conduct at issue.
Specifically, the members found beyond reasonable
doubt that the appellant entered into an agreement
to, among other things, murder protected persons.25
In furtherance of the conspiracy, the members
concluded that the appellant committed several overt
acts, including: traveling to Afghanistan with the
purpose of joining al Qaeda; undergoing military
training at an al Qaeda sponsored training camp;
pledging fealty to al Qaeda leader Usama bin Laden;
preparing various propaganda videos to solicit
Under 2006 MCA § 950v(b)(1), the murder of protected persons
is the intentional killing of one or more persons “entitled to
protection under on or more of the Geneva Conventions,
including ... civilians not taking an active part in hostilities.” 10
U.S.C. § 950v(a)(2)(A). 10 U.S.C. § 950v was omitted in the
general revision of Chapter 47A by Act Oct. 28, 2009, P.L. 11184, Div A, Title XVIII, § 1802. Title 10 U.S.C. § 950t(1) (2009)
punishes “murder of protected persons” with “death or such
other punishment as a military commission under this chapter
may direct.”

25

85a
support for al Qaeda and to indoctrinate al Qaeda
personnel; acting as personal secretary and media
secretary to Usama bin Laden; arranging for two of
the 9/11 hijackers to pledge fealty to Usama bin
Laden; preparing propaganda declarations or “Martyr
Wills” for the two 9/11 hijackers; and researching the
economic effects of the 9/11 attacks. Bahlul I, 820
F.Supp.2d at 1222.
These overt acts in support of the conspiracy
charge were the same overt acts the members found
in support of Charge III (providing material support
to terrorism). Moreover, in Charge II (solicitation) the
members found that Al Bahlul urged others to commit
the same crimes he conspired to commit in Charge I.
Thus, any evidence presented to establish Charges II
and III was also admissible to establish Charge I.
Finally, although the appellant’s conviction for
conspiracy to commit war crimes remains the only
such conviction of its kind reviewed by our Court, we
recognize, as we stated above, that “one of the
conspiracy’s object offenses was the murder of
protected persons.” Bahlul II, 767 F.3d at 22.
Conspiracy to commit murder is not so novel a crime
that we are unable to “reliably determine what
sentence would have been imposed at trial.”
Winckelmann, 73 M.J. at 16.
Taking these facts as a whole, as well as the entire
record of the appellant’s trial, we are confident that,
absent the error, the members would have sentenced
the appellant to confinement for life. We also find that
sentence to be an appropriate punishment for the sole
remaining conviction and this offender—thus

86a
satisfying the requirement for a reassessed sentence
to be both purged of error and appropriate for the
offense involved. Sales, 22 M.J. at 308. In reaching
this conclusion that confinement for life is an
appropriate sentence for this offender and his offense,
we have considered—and rejected—the appellant’s
renewed claims that a sentence to life in prison is
inappropriately severe. As we noted in our original
review of the appellant’s conviction, “[t]he nature and
seriousness” of the conspiracy offense is manifest in
the charge itself. Bahlul I, 820 F.Supp.2d at 1260. The
objects of the conspiracy charge included committing
murder and attacking civilians. Undeniably, the
appellant’s overt acts in furtherance of the conspiracy
made valuable contributions to the conspiracy and to
al Qaeda. As a result, in fulfilling our “judicial
function of assuring that justice is done and that the
[appellant] gets the punishment he deserves,” we
affirm a sentence of confinement for life. United
States v. Healy, 26 M.J. 394, 395 (C.M.A. 1988).
IV. Conclusion
The appellant’s and appellee’s motions to consider
various briefs and attachments are GRANTED.
The appellant’s motions to dismiss the charge
based on his challenges to the appointment of the
Convening Authority are DENIED.
The sentence is AFFIRMED.

87a
Appendix C
DESIGNATED CONVENING
AUTHORITIES FOR MILITARY
COMMISSIONS
2006 – present
Type
Date
Name
Position
of
Appt
11/17/06
–
02/06/07

Gordon
England

Deputy Secretary
PAS
of Defense

02/06/07
Susan
–
Crawford
01/31/10

Director, Office
of Convening none
Authority

03/25/10
Director, Office
Bruce
–
of Convening none
MacDonald
03/22/13
Authority

03/22/13
–
09/30/14

Paul
General Counsel,
Oostburg
PAS
Dept. of the Navy
Sanz

88a
09/30/14
Director, Office
–
Vaugn Ary of Convening none
03/18/15
Authority

03/18/15
–
04/04/17

Paul
General Counsel,
Oostburg
PAS
Dept. of the Navy
Sanz

04/04/17
–
02/03/18

Harvey
Rishikof

Director, Office
of Convening none
Authority

02/03/18
–
08/09/18

James
Coyne

General Counsel,
Defense Logistics none
Agency

08/09/18
Deputy General
Melinda
none
–
Counsel, Defense
Perritano
05/23/19
Logistics Agency

89a
05/23/19
Director, Office
Christian
–
of Convening none
Reismeier1
04/17/20
Authority

07/05/19
–
04/17/20

Robert
Hogue

04/17/20
–
present

Jeffrey
Wood2

Counsel to the
Commandant, none
Marine Corps

Convening
Authority

unk.

On June 14, 2019, Christian Reismeier recused
himself from overseeing this case and the Al-Nashiri
case due to his past involvement military commission
prosecutions. His recusal left the Secretary of Defense
as the only convening authority in these two cases until
the designation of Robert Hogue on July 5, 2019.
1

2 As of this filing, Christian Reismeier remains the
Director, Office of Convening Authority. Though a
reservist in the Army National Guard, Jeffrey Wood
serves as the Convening Authority in a civilian
capacity. Counsel for Petitioner submitted multiple
requests for information on Mr. Wood’s civilian position
without response. The limited records available
indicate that this position is titled “Convening
Authority,” but all other details remain unknown.

90a
Appendix D
SECRETARY OF DEFENSE
1000 DEFENSE PENTAGON
WASHINGTON, DC 20301-1000
Feb 6 2007
MEMORANDUM FOR SECRETARIES OF
THE
MILITARY
DEPARTMENTS,
CHAIRMAN OF THE JOINT CHIEFS OF
STAFF
UNDER
SECRETARIES
OF
DEFENSE, GENERAL COUNSEL OF THE
DEPARTMENT OF DEFENSE, ASSISTANT
SECRETARIES OF DEFENSE
SUBJECT:
Designation
of
Convening
Authority for Military Commissions
Pursuant to Chapter 47A of Title 10, United
States Code, Section 948h, the Honorable
Susan J. Crawford, currently the Director of
the Office of the Convening Authority, is
designated as the Convening Authority for
Military Commissions. The designation of the
Deputy Secretary of Defense as the
Convening Authority, dated November 17,
2006, is rescinded.
/s/ Robert M. Gates
cc:
The Honorable Susan J. Crawford
The Honorable Pete Geren
Legal Advisor, Office of Military Commissions
Chief Prosecutor, Office of Military Commissions
Chief Defense Counsel, Office of Military Commissions

91a
Appendix E
No. 040003
)
UNITED STATES
)
)
v.
)
)
ALI HAMZA AHMAD
)
SULAYMAN AL BAHLUL
)
a/k/a Ali Hamza Ahmed
)
Suleman al Bahlul
)
a/k/a Abu Anas al Makki
)
a/k/a Abu Anas Yemeni
)
a/k/a Mohammad Anas
)
Abdullah Khalidi
)

Approval of
Charges and
Referral
June 28, 2004

The charge against Ali Hamza Ahmad Sulayman al
Bahlul (a/k/a Ali Hamza Ahmed Suleman al Bahlul,
a/k/a Abu Anas al Makki, a/k/a Abu Anas Yemeni,
a/k/a Mohammad Anas Abdullah Khalidi) is approved
and referred to the Military Commission identified at
Encl 1. The Presiding Officer will notify me not later
than July 15, 2004, of the initial trial schedule,
including dates for submission and argument of
motions, and a convening date.
/s/ John Altenburg, Jr.
John Altenburg, Jr.
Appointing Authority
for Military Commissions

92a
Appendix F
DEPARTMENT OF DEFENSE
Office of Military Commissions
1600 Defense Pentagon
Washington, DC 20301-1600
MILITARY COMMISSION ORDER NUMBER 1
3 June 2009
Ali Hamza Ahmad Suliman al Bahlul, a/k/a “Abu
Anas al Makki,” a/k/a “Ali Hamza Ismael,” a/k/a “Abu
Anas al Yemeni,” a/k/a “Muhammad Anis Abdulla
Khalidi,” (ISN 0039) of Yemen was arraigned and
tried before a military commission convened at the
U.S. Naval Station, Guantanamo Bay, Cuba,
pursuant to Military Commission Convening Order
No. 07-01, dated 1 March 2007, as amended by
Military Commission Convening Order No. 07-05,
dated 29 May 2007, and as amended by Military
Commission Convening Order No. 08-03, dated 22
October 2008.
The accused was arraigned and tried on the following
offenses and the following findings or other
dispositions were reached:
Charge I: 10 U.S.C. § 950v(b)(28) Conspiracy. Plea:
Not Guilty. Finding: Guilty.

93a
Specification: From about February 1999 through
about December 2001 did conspire and agree with
Usama bin Laden, Saif al ‘Adl, and other members
and associates of al Qaeda, known and unknown, to
commit one or more offenses triable by military
commission, to wit: murder of protected persons;
attacking civilians; attacking civilian objects; commit
murder in violation of the Law of War; destruction of
property in violation of the Law of War; terrorism;
and providing material support for terrorism at
various locations in Afghanistan and elsewhere, and
did undertake several overt acts in furtherance of the
conspiracy.
Plea: Not Guilty. Finding: Guilty, except the words
“armed himself with an explosive belt, rifle, and
grenades to protect and prevent the capture of Usama
bin Laden.” Of the excepted words: Not Guilty.
Charge II: 10 U.S.C. § 950u Solicitation. Plea: Not
Guilty. Finding: Guilty.
Specification: From about February 1999 through
about December 2001 at various locations in
Afghanistan, Pakistan, and elsewhere, did solicit
several suspected al Qaeda operatives, known and
unknown, to commit substantive offenses triable by
military commissions, to wit: murder of protected
persons; attacking civilians; attacking civilian
objects; murder in violation of the Law of War;
destruction of property in violation of the Law of War;
terrorism; and providing material support for
terrorism.

94a
Plea: Not Guilty. Finding: Guilty.
Charge III: 10 U.S.C. § 950v(b)(25) Providing
Material Support for Terrorism. Plea: Not Guilty.
Finding: Guilty.
Specification: From about February 1999 through
about December 2001, at various locations in
Afghanistan and elsewhere, did intentionally provide
material support and resources to al Qaeda, an
international terrorist organization then engaged in
hostilities against the United States of America,
including violent attacks against United States’
embassies at or near Nairobi, Kenya, and Dar es
Salaam, Tanzania, on or about August 7, 1998; on the
USS COLE at or near Aden, Yemen, on or about
October 12, 2000; and at various locations in the
United States on or about September 11,2001;
knowing that al Qaeda engaged in or engages in
terrorism, and acting in support of al Qaeda’s
objectives.
Plea: Not Guilty. Finding: Guilty, except the words
“arming himself with an explosive belt, rifle, and
grenades to protect and prevent the capture of Usama
bin Laden.” Of the excepted words: Not Guilty.
SENTENCE
The following sentence was adjudged by the members
on 3 November 2008: Confinement for Life.

95a
ACTION
In the case of Ali Hamza Ahmad Suliman al Bahlul,
a/k/a “Abu Anas al Makki,” a/k/a “Ali Hamza Ismael,”
alkla “Abu Anas al Yemeni,” a/k/a “Muhammad Anis
Abdulla Khalidi,” ISN 0039, the sentence is approved
and will be executed. The accused will be confined in
such place as may be prescribed by the Commander,
Joint Task Force Guantanamo Bay, Cuba, or superior
authority.
BY DIRECTION OF SUSAN J. CRAWFORD,
CONVENING AUTHORITY:
/s/ Donna L. Wilkins
Donna L. Wilkins
Clerk of Court
for Military Commissions
DISTRIBUTION:
1-Accused (Mr. al Bahlul)
1-Military Judge (Col Gregory)
1-Trial Counsel (MAJ Cowhig)
1-Defense Counsel (Maj Frakt)
1-Clerk of Court, OMC
1-Clerk of Court, CMCR
1-OSD (OGC)
1-JTF GTMO (Detention Facility)
1-SJA, JTF GTMO
5-Original Record of Trial
1-Each Copy of the Record of Trial

96a
Jun 3 2009
ACTION
In the case of Ali Hamza Ahmad Suliman al Bahlul,
a/k/a “Abu Anas al Makki,” a/k/a “Ali Hamza Ismael,”
a/k/a “Abu Anas al Yemeni,” a/k/a “Muhammad Anis
Abdulla Khalidi,” ISN 0039, the sentence is approved
and will be executed. The accused will be confined in
such place as may be prescribed by the Commander,
Joint Task Force Guantanamo Bay, Cuba, or superior
authority.
/s/ Susan J, Crawford
Susan J. Crawford
Convening Authority
for Military Commissions

97a
Appendix G
RELEVANT CONSTITUTIONAL, STATUTORY,
AND REGULATORY PROVISIONS
Article II § 2, cl. 2 of the United States
Constitution states:
[The President] shall have power, by and with the
advice and consent of the Senate, to make treaties,
provided two thirds of the Senators present concur;
and he shall nominate, and by and with the advice
and consent of the Senate, shall appoint ambassadors,
other public ministers and consuls, judges of the
Supreme Court, and all other officers of the United
States, whose appointments are not herein otherwise
provided for, and which shall be established by law:
but the Congress may by law vest the appointment of
such inferior officers, as they think proper, in the
President alone, in the courts of law, or in the heads
of departments.
10 U.S.C. § 948h (2006/2009) states:
Military commissions under this chapter may be
convened by the Secretary of Defense or by any officer
or official of the United States designated by the
Secretary for that purpose.
10 U.S.C. § 948i(b) (2006) states:
Detail of Members.—When convening a military
commission under this chapter, the convening
authority shall detail as members of the commission
such members of the armed forces eligible under

98a
subsection (a), as in the opinion of the convening
authority, are best qualified for the duty by reason of
age, education, training, experience, length of service,
and judicial temperament. No member of an armed
force is eligible to serve as a member of a military
commission when such member is the accuser or a
witness for the prosecution or has acted as an
investigator or counsel in the same case.
10 U.S.C. § 948i(c) (2006) states:
Excuse of Members.— Before a military
commission under this chapter is assembled for the
trial of a case, the convening authority may excuse a
member from participating in the case.
10 U.S.C. § 948m(b) (2006) states:
Excuse of Members.— No member of a military
commission under this chapter may be absent or
excused after the military commission has been
assembled for the trial of a case unless excused—
(1) as a result of challenge;
(2) by the military judge for physical disability or
other good cause; or
(3) by order of the convening authority for good
cause.
10 U.S.C. § 948m(c) states:
Absent and Additional Members.— Whenever a
military commission under this chapter is reduced
below the number of members required by subsection
(a), the trial may not proceed unless the convening
authority details new members sufficient to provide

99a
not less than such number. The trial may proceed
with the new members present after the recorded
evidence previously introduced before the members
has been read to the military commission in the
presence of the military judge, the accused (except as
provided in section 949d of this title), and counsel for
both sides.
10 U.S.C. § 949b(a)(2)(B) (2006) states, in
relevant part:
No person may attempt to coerce or, by any
unauthorized means, influence—
(A) the action of a military commission under this
chapter, or any member thereof, in reaching the
findings or sentence in any case;
(B) the action of any convening, approving, or
reviewing authority with respect to his judicial acts;
or
(C) the exercise of professional judgment by trial
counsel or defense counsel.
10 U.S.C. § 949m(c)(2) (2006) states:
In any case described in paragraph (1) in which 12
members are not reasonably available because of
physical conditions or military exigencies, the
convening authority shall specify a lesser number of
members for the military commission (but not fewer
than 9 members), and the military commission may
be assembled, and the trial held, with not fewer than
the number of members so specified. In such a case,
the convening authority shall make a detailed written
statement, to be appended to the record, stating why

100a
a greater number of members were not reasonably
available.
10 U.S.C. § 949b (2006) states:
(a) Notice to Convening Authority of Findings and
Sentence.—The findings and sentence of a military
commission under this chapter shall be reported in
writing promptly to the convening authority after the
announcement of the sentence.
(b) Submittal of Matters by Accused to Convening
Authority.—
(1) The accused may submit to the convening
authority matters for consideration by the convening
authority with respect to the findings and the
sentence of the military commission under this
chapter.
(2)(A) Except as provided in subparagraph (B), a
submittal under paragraph (1) shall be made in
writing within 20 days after the accused has been
given an authenticated record of trial under section
949o(c) of this title.
(B) If the accused shows that additional time is
required for the accused to make a submittal under
paragraph (1), the convening authority may, for good
cause, extend the applicable period under
subparagraph (A) for not more than an additional 20
days.
(3) The accused may waive his right to make a
submittal to the convening authority under
paragraph (1). Such a waiver shall be made in writing
and may not be revoked. For the purposes of
subsection (c)(2), the time within which the accused

101a
may make a submittal under this subsection shall be
deemed to have expired upon the submittal of a
waiver under this paragraph to the convening
authority.
(c) Action by Convening Authority.—(1) The
authority under this subsection to modify the findings
and sentence of a military commission under this
chapter is a matter of the sole discretion and
prerogative of the convening authority.
(2)(A) The convening authority shall take action on
the sentence of a military commission under this
chapter.
(B) Subject to regulations prescribed by the
Secretary of Defense, action on the sentence under
this paragraph may be taken only after consideration
of any matters submitted by the accused under
subsection (b) or after the time for submitting such
matters expires, whichever is earlier.
(C) In taking action under this paragraph, the
convening authority may, in his sole discretion,
approve, disapprove, commute, or suspend the
sentence in whole or in part. The convening authority
may not increase a sentence beyond that which is
found by the military commission.
(3) The convening authority is not required to take
action on the findings of a military commission under
this chapter. If the convening authority takes action
on the findings, the convening authority may, in his
sole discretion, may—
(A) dismiss any charge or specification by setting
aside a finding of guilty thereto; or

102a
(B) change a finding of guilty to a charge to a
finding of guilty to an offense that is a lesser included
offense of the offense stated in the charge.
(4) The convening authority shall serve on the
accused or on defense counsel notice of any action
taken by the convening authority under this
subsection.
(d) Order of Revision or Rehearing.—(1) Subject to
paragraphs (2) and (3), the convening authority of a
military commission under this chapter may, in his
sole discretion, order a proceeding in revision or a
rehearing.
(2)(A) Except as provided in subparagraph (B), a
proceeding in revision may be ordered by the
convening authority if—
(i) there is an apparent error or omission in the
record; or
(ii) the record shows improper or inconsistent
action by the military commission with respect to the
findings or sentence that can be rectified without
material prejudice to the substantial rights of the
accused.
(B) In no case may a proceeding in revision—
(i) reconsider a finding of not guilty of a
specification or a ruling which amounts to a finding of
not guilty;
(ii) reconsider a finding of not guilty of any charge,
unless there has been a finding of guilty under a
specification laid under that charge, which
sufficiently alleges a violation; or
(iii) increase the severity of the sentence unless
the sentence prescribed for the offense is mandatory.

103a
(3) A rehearing may be ordered by the convening
authority if the convening authority disapproves the
findings and sentence and states the reasons for
disapproval of the findings. If the convening authority
disapproves the finding and sentence and does not
order a rehearing, the convening authority shall
dismiss the charges. A rehearing as to the findings
may not be ordered by the convening authority when
there is a lack of sufficient evidence in the record to
support the findings. A rehearing as to the sentence
may be ordered by the convening authority if the
convening authority disapproves the sentence.
10 U.S.C. § 950c(a) (2006/2009) states:
Automatic Referral for Appellate Review.—Except
as provided under subsection (b), in each case in
which the final decision of a military commission (as
approved by the convening authority) includes a
finding of guilty, the convening authority shall refer
the case to the Court of Military Commission Review.
Any such referral shall be made in accordance with
procedures prescribed under regulations of the
Secretary.
10 U.S.C. § 950f(c) (2006) states:
Cases to be Reviewed.—The Court of Military
Commission Review, in accordance with procedures
prescribed under regulations of the Secretary, shall
review the record in each case that is referred to the
Court by the convening authority under section 950c
of this title with respect to any matter of law raised
by the accused.

104a
10 U.S.C. § 950f(c) (2009) states:
Cases to be Reviewed.— The Court shall, in
accordance with procedures prescribed under
regulations of the Secretary, review the record in each
case that is referred to the Court by the convening
authority under section 950c of this title with respect
to any matter properly raised by the accused.
10 U.S.C. § 950f(d) (2009) states:
In a case reviewed by the Court under this section,
the Court may act only with respect to the findings
and sentence as approved by the convening authority.
The Court may affirm only such findings of guilty, and
the sentence or such part or amount of the sentence,
as the Court finds correct in law and fact and
determines, on the basis of the entire record, should
be approved. In considering the record, the Court may
weigh the evidence, judge the credibility of witnesses,
and determine controverted questions of fact,
recognizing that the military commission saw and
heard the witnesses.
10 U.S.C. § 950g(a) (2009) states:
Except as provided in subsection (b), the United
States Court of Appeals for the District of Columbia
Circuit shall have exclusive jurisdiction to determine
the validity of a final judgment rendered by a military
commission (as approved by the convening authority
and, where applicable, as affirmed or set aside as
incorrect in law by the United States Court of Military
Commission Review) under this chapter.

105a
10 U.S.C. § 950g(d) (2009) states:
Scope and Nature of Review. — The United States
Court of Appeals for the District of Columbia Circuit
may act under this section only with respect to the
findings and sentence as approved by the convening
authority and as affirmed or set aside as incorrect in
law by the United States Court of Military
Commission Review, and shall take action only with
respect to matters of law, including the sufficiency of
the evidence to support the verdict.
10 U.S.C. § 950i(d) (2006/2009) states:
Suspension of Sentence. — The Secretary of the
Defense, or the convening authority acting on the case
(if other than the Secretary), may suspend the
execution of any sentence or part thereof in the case,
except a sentence of death.
10 U.S.C. § 950j(a) (2006) states:
Finality. The appellate review of records of trial
provided by this chapter, and the proceedings,
findings, and sentences of military commissions as
approved, reviewed, or affirmed as required by this
chapter, are final and conclusive. Orders publishing
the proceedings of military commissions under this
chapter are binding upon all departments, courts,
agencies, and officers of the United States, except as
otherwise provided by the President.
10 U.S.C. § 950j (2009) states:

106a
Finality of proceedings, findings, and sentences.
The appellate review of records of trial provided by
this chapter, and the proceedings, findings, and
sentences of military commissions as approved,
reviewed, or affirmed as required by this chapter, are
final and conclusive. Orders publishing the
proceedings of military commissions under this
chapter are binding upon all departments, courts,
agencies, and officers of the United States, subject
only to action by the Secretary or the convening
authority as provided in section 950i(c) of this title
and the authority of the President.

107a
Regulation for Trial by Military Commission
§ 1-3(b) (2007) states:
The Chief Trial Judge, Military Commissions
Trial Judiciary, as designee of the convening
authority, is responsible for the supervision and
administration of the Military Commissions Trial
Judiciary.
Regulation for Trial by Military Commission
§ 1-5 (b) (2007) states:
Those who fail to adhere to the rules, procedures,
regulations, and instructions applicable to trials by
military commission may be subject to appropriate
action by the Secretary of Defense or his designee, the
Convening Authority for Military Commissions, or
the military judge of a military commission.
Regulation for Trial by Military Commission
§ 2-1 (2007) states:
The Office of the Convening Authority for Military
Commissions is established in the Office of the
Secretary of Defense under the authority, direction,
and control of the Secretary of Defense. The Office of
the Convening Authority shall consist of the Director
of the Office of the Convening Authority, the
convening authority, the legal advisor to the
convening authority, and such other subordinate
officials and organizational elements as are within
the resources of the Secretary of Defense.
Regulation for Trial by Military Commission
§ 2-2 (2007) states:

108a
Pursuant to 10 U.S.C. § 948h, the Secretary of
Defense or any officer or official of the United States
designated by the Secretary for that purpose may
convene military commissions. No specific form or
order is designated as required to effect the
appointment of one or more convening authorities by
the Secretary of Defense.
Regulation for Trial by Military Commission
§ 2-3 (2007) states:
a. In performing duties directly related to military
commissions, the convening authority shall:
1. dispose of charges forwarded to the convening
authority by the trial counsel through the legal
advisor, by either referring any or all charges to a
military commission, returning them to trial counsel
with directions for further action, or dismissing them;
2. issue orders convening one or more military
commissions to try alien unlawful enemy combatants
for violations of the law of war or other crimes triable
by military commissions;
3. detail as military commission members and
alternate members those commissioned officers who
are, in the opinion of the convening authority, best
qualified for duty by reason of age, education,
training, experience, length of service, and judicial
temperament;
4. detail or employ qualified court reporters to
make verbatim records of all commission sessions;
5. detail or employ qualified interpreters who shall
interpret for the commissions and, as necessary, for
the accused;

109a
6. appoint all other personnel necessary to
facilitate military commissions;
7. approve or disapprove requests from the
prosecution to communicate with news media
representatives regarding military commission cases
and other matters related to military commissions;
8. approve or disapprove plea agreements with an
accused;
9. order that such investigative or other resources
be made available to defense counsel and the accused
as deemed necessary by the convening authority for a
fair trial;
10. employ those experts requested by a party and
found by the convening authority to be relevant and
necessary;
11. be responsible for effecting preparation of the
record of trial;
12. consider matters submitted by an accused with
respect to the findings and sentence prior to taking
action on the case;
13. take such action on the findings and sentence
deemed by the convening authority appropriate;
14. forward the case (as approved by the convening
authority) to the Court of Military Commission
Review; and
15. perform such other functions as the Secretary
of Defense or an appellate court may prescribe.
b. In the performance of assigned functions and
responsibilities, the convening authority for military
commissions shall:
1. report directly to the Secretary of Defense or his
designee;

110a
2. use existing facilities and services of the
Department of Defense and other federal agencies,
whenever practicable, to avoid duplication and to
achieve an appropriate level of efficiency and
economy;
3. communicate directly with the heads of other
DOD components as necessary to carry out assigned
functions.
Communications
to
the
military
departments shall be transmitted through the
Secretaries of the military departments, their
designees, or as otherwise provided by law or directed
by the Secretary of Defense. Communications to the
Commanders of the Combatant Commands, except in
unusual circumstances, shall be transmitted through
the Chairman of the Joint Chiefs of Staff; and
4. communicate with other Government officials,
representatives of the legislative branch, members of
the public, and representatives of foreign
governments, as applicable, in carrying out assigned
functions.

Regulation for Trial by Military Commission
§ 4-1 (2007) states:
a. The Secretary of Defense or a convening
authority designated by the Secretary of Defense may
order charges against an accused be tried by a
specified military commission.
b. The convening authority will personally
determine whether to refer the charges to trial by
military commission and to the type of military

111a
commission (capital or non-capital) to which charges
will be referred. This function may not be delegated.
Regulation for Trial by Military Commission
§ 4-3(a) (2007) states:
The convening authority refers cases by personal
order and may include instructions regarding the
disposition of the charges and how they are to be
tried. The convening authority may refer cases to a
non-capital commission even if the offenses referred
are capital offenses. If a case is referred to a capital
commission, the offenses referred must be capital
offenses and the convening authority must indicate on
the referral with a special instruction that the case is
to be tried as capital (see R.M.C. 201(d))
Regulation for Trial by Military Commission
§ 4-3(c) (2007) states:
In a case where the death penalty is authorized,
and the convening authority decides to refer the case
as non-capital, the referral should include special
instructions stating the case is referred as noncapital.
1. Instructions. The convening authority may
include instructions in his referral order that:
A. charges against an accused be tried with other
charges previously referred;
B. charges against one accused be referred for joint
or common trial with another accused; and
C. capital offenses be referred as non-capital
offenses (see R.M.C. 601 (e)).

112a
Regulation for Trial by Military Commission
§ 4-3(h) (2007) states:
If the convening authority is unable to refer the
case to trial, forward the case to the Secretary of
Defense for further action. If the Secretary of Defense
cannot take action in a particular case, the Secretary
of Defense should designate an official to serve as the
convening authority for a particular case.
Regulation for Trial by Military Commission
§ 5-2(h) (2007) states:
a. Pursuant to 10 U.S.C. § 948i(b) the convening
authority shall detail as members of the commission
such commissioned officers who are on active duty
and who in the opinion of the convening authority are
best qualified for the duty by reason of age, education,
training, experience, length of service, and judicial
temperament. No member of an armed force is eligible
to serve as a member of a military commission when
such member is the accuser or a witness for the
prosecution or has acted as an investigator or counsel
in the same case (see R.M.C. 502(a)).
b. The convening authority may excuse a member
from participating in a case before a military
commission is assembled for trial (see 10 U.S.C. §
948i(c)).
c. After assembly of the court, the convening
authority may excuse a member for good cause (see 10
U.S.C. § 948m(b)(3)).
Regulation for Trial by Military Commission
§ 5-3 (2007) states:

113a
a. Convening orders. A convening order is used to
announce the detail of a military commission. A
military commission is created by a convening order
of the convening authority (see R.M.C. 504(a)). The
convening authority for a military commission shall
detail the members and designate where the military
commission will meet. If the convening authority has
been designated by the Secretary of Defense, the
convening order will so state (see R.M.C. 504(d)).
b. The convening authority will issue convening
orders for each military commission as soon as
practicable after he or she personally determines the
members of a military commission. Oral convening
orders will be confirmed by written orders as soon as
practicable. Convening orders may be amended.
c. A list of the individuals, organizations, and
installations to which copies of the order will be sent
and the number of copies to be furnished will be
indicated under “DISTRIBUTION.” Distribution
includes one copy for the reference set, when needed,
and the record set of the military publications.
Regulation for Trial by Military Commission
§ 6-1(b) (2007) states:
The Military Commissions Trial Judiciary will
consist of military judges nominated by The Judge
Advocates General from the military departments.
The Chief Trial Judge will be selected from that pool
of military judges by the convening authority.
Regulation for Trial by Military Commission
§ 7-4 (2007) states:

114a
The convening authority may detail a security
officer to advise a military commission on matters
related to classified and protected information. In
addition to any other duties assigned by the
convening authority, the security officer shall ensure
that all classified or protected evidence and
information is appropriately safeguarded at all times
and that only personnel with the appropriate
clearances and authorizations are present when
classified or protected evidence are presented before
military commissions.
Regulation for Trial by Military Commission
§ 7-7 (2007) states:
Reporters, interpreters, security personnel, and
clerical assistants may be detailed from either
military or civilian personnel serving under the
convening authority or, in the case of reporters and
interpreters, through a commercial provider. When
necessary, the convening authority may employ or
authorize the employment of a reporter or interpreter,
at the prevailing wage scale, for duty with a military
commission or at the taking of a deposition. No
expense to the Government shall be incurred by the
employment of a reporter, interpreter, or other person
to assist in a military commission or the taking of a
deposition, except when authorized by the convening
authority.
Regulation for Trial by Military Commission
§ 8-4(d)(3) (2007) states:
The trial counsel shall, as directed by the military
judge or the convening authority, prepare any

115a
documentation necessary to facilitate the conduct of
military commissions proceedings.
Regulation for Trial by Military Commission
§ 8-4(d)(5) (2007) states:
Trial counsel shall perform all other functions,
consistent with the M.C.A. and M.M.C., as may be
directed by the convening authority or the military
judge.
Regulation for Trial by Military Commission
§ 8-6(b)(1) (2007) states:
The Chief Prosecutor shall report to the legal
advisor to the convening authority.
Regulation for Trial by Military Commission
§ 8-6(b)(4) (2007) states:
All other military commission personnel, such as
court reporters, interpreters, security personnel,
bailiffs and clerks detailed or employed by the
convening authority, if not assigned to the Office of
the Chief Defense Counsel or Chief Prosecutor, shall
report to the convening authority or her designee.
Regulation for Trial by Military Commission
§ 8-7 (2007) states:
The Assistant Secretary of Defense for Public
Affairs shall serve as the sole release authority for
Department of Defense information and audiovisual
materials regarding military commissions. Personnel
assigned to the Office of the Chief Prosecutor may
communicate with news media representatives

116a
regarding cases and other matters related to military
commissions only when approved by the convening
authority.
Regulation for Trial by Military Commission
§ 9-1(a)(4) (2007) states:
The Chief Defense Counsel shall detail a judge
advocate of any United States armed force, who is
assigned to or performing duty with, the Office of the
Chief Defense Counsel, to perform the duties of the
detailed defense counsel as set forth in R.M.C.
502(d)(6). The Chief Defense Counsel shall also detail
or employ any other personnel as approved by the
convening authority. The Chief Defense Counsel may
not detail himself to perform the duties of detailed
defense counsel.
Regulation for Trial by Military Commission
§ 10-1(b) (2007) states:
Failure, by any individual, including military or
civilian counsel, to adhere to the rules, procedures,
regulations, and instructions applicable to trials by
military commission may result in action by the
Secretary of Defense or his designee, convening
authority, or the military judge of a military
commission. Such action may include permanently
barring an individual from participating in any
military commission proceeding convened pursuant
to the M.C.A., punitive measures imposed under
R.M.C. 809, and any other lawful sanction.

117a
Regulation for Trial by Military Commission
§ 12-1 (2007) states:
Unless such authority is withheld by a superior
competent authority, convening authority is
authorized to enter into or reject offers to enter into
Pretrial Agreements (PTAs) with the accused. The
decision to accept or reject a PTA offer submitted by
an accused is within the sole discretion of the
convening authority who referred the case to trial.
Regulation for Trial by Military Commission
§ 13-1 (2007) states:
The funding for all witness travel approved by the
convening authority related to trials by military
commission will be arranged by the Office of Military
Commissions.
Regulation for Trial by Military Commission
§ 13-7(b) (2007) states:
Only the convening authority may authorize the
employment of an expert witness at government
expense. Such authorization shall be in writing and
shall fix the limit of compensation to be paid such
expert based on the normal compensation paid by
United States attorneys for attendance of a witness of
such standing in the United States courts in the area
involved. The expert witness fee prescribed by the
convening authority however, will be paid in lieu of
the ordinary attendance fee only on those days the
witness is required to attend the court at government
expense.

118a
Regulation for Trial by Military Commission
§ 14-2 (2007) states:
A request for a deposition may be made by either
party. A deposition may be ordered after the charges
are sworn. The convening authority, who has the
charges for disposition, or, after referral, the military
judge, may order a deposition taken upon request of a
party pursuant to R.M.C. 702. The parties may also
agree to take a deposition without cost to the United
States. Requests to the convening authority should be
forwarded through the convening authority’s legal
advisor.
Regulation for Trial by Military Commission
§ 15-1(b)(1) (2007) states:
The military commissions convening authority
may grant immunity to any persons subject to the
M.C.A. However, the convening authority may grant
immunity to a person subject to the M.C.A. extending
to a prosecution in a United States District Court only
when specifically authorized to do so by the Attorney
General of the United States or other authority
designated under 18 U.S.C. § 6004.
Regulation for Trial by Military Commission
§ 17-3(a) (2007) states:
A protective order may be sought by either party
at any time counsel believes information must be
protected or limited in its disclosure. Protective
orders are governed by R.M.C. 701-703 and Mil.
Comm. R. Evid. 505 and 506. Any military judge, or if

119a
prior to referral of charges, the convening authority,
may issue a Protective Order.
Regulation for Trial by Military Commission
§ 23-7 (2007) states:
The convening authority shall follow the
provisions of R.M.C. 1105(a) and 1107 in taking action
on post-trial matters. The convening authority may,
in her sole discretion, approve, disapprove, commute,
or suspend the sentence in whole or in part. The
convening authority may not increase a sentence
beyond that which is found by the military
commission.
Regulation for Trial by Military Commission
§ 26-4(b) (2007) states:
Final orders. The convening authority shall issue
final orders in cases that:
1. Are returned from the appellate courts for
action in accordance with the decision of the court.
2. Implement the decision of the President to
approve or to commute the sentence of death
adjudged by the military commission.
3. The accused waives appellate review.
Regulation for Trial by Military Commission
§ 27-2(a) (2007) states:
Proceeding in revision. Up to the point of action,
only the convening authority may order the convening
of a proceeding in revision. Such proceedings may be
convened to correct errors, omissions, or
inconsistencies arising during or after trial, provided

120a
that such correction can be affected without material
prejudice to the accused.

Regulation for Trial by Military Commission
§ 27-2(b) (2007) states:
Post-trial R.M.C. 803 session. Either the
convening authority or the military judge may order
a post-trial R.M.C. 803 session for the purpose of: (1)
inquiring into or resolving a matter arising after trial
that substantially affects the legal sufficiency of any
finding of guilty or the sentence; or (2) reconsidering
any ruling by the military judge that substantially
affects the legal sufficiency of any finding of guilty or
the sentence. An R.M.C. 803 session may not be called
for the purpose of inquiring into any matter arising
after trial or any reconsidering any ruling of the
military judge, if the inquiry or reconsideration
pertains to any finding of not guilty. A request by
either party for a posttrial R.M.C. 803 session may be
directed to the convening authority or the military
judge, or both. Either the convening authority or
military judge may order such session sua sponte. If
a post-trial R.M.C. 803 session is ordered, the official
directing the session will ensure that counsel and the
accused are notified as soon as practicable. Trial
counsel will seek expeditious scheduling of the session
with the military judge.
Regulation for Trial by Military Commission
§ 27-3(c) (2007) states:

121a
Although the convening authority is not required
to take action on the findings or to review the case for
factual sufficiency or legal errors prior to taking
action under R.M.C. 1107, the convening authority
may, in his or her sole discretion, order a rehearing of
any offense for which a finding of guilty was entered,
unless the convening authority also determines that
there is insufficient evidence in the record to support
a finding of guilty on the offense charged or any lesser
included offense. Pursuant to R.M.C. 1107, the
convening authority may also order a rehearing as to
any lesser-included offense of any offense for which a
finding of guilty was entered at trial, so long as the
convening authority does not also find that the record
contains insufficient evidence to support that lesser
included offense. In determining whether the
evidence is sufficient to support a rehearing of
findings under R.M.C. 1107, the convening authority
may consider substitute evidence for evidence the
convening authority determines should not have been
admissible at trial. If, after a rehearing under this
paragraph, any finding of guilty remains, the
convening authority may direct a rehearing as to
sentence or may approve a sentence of no
punishment.
Regulation for Trial by Military Commission
§ 27-3(d) (2007) states:
In acting on the sentence in any case under R.M.C.
1107, the convening authority may elect to approve
all or part of the sentence, approve a sentence of a
lesser type, direct a rehearing as to sentence, or
approve a sentence of no punishment.

122a

Regulation for Trial by Military Commission
§ 27-4(a) (2007) states:
Within two years after the convening authority
has approved the sentence in a military commission
case, the accused may petition the convening
authority for a new trial on the grounds of:
1. Newly discovered evidence (except as to any
specification for which a guilty plea was accepted by
the military judge); or
2. Fraud on the commission.

123a
Manual for Military Commissions, Rule for
Military Commission 103(8) (2007) states:
“Convening authority” means the Secretary of
Defense or any officer or official of the United States
designated by the Secretary of Defense for that
purpose.
Manual for Military Commissions, Rule for
Military Commission 104(a)(2) (2007) states:
No person may attempt to coerce or, by any
unauthorized means, influence the action of a
military commission or any member thereof, in
reaching the findings or sentence in any case or the
action of any convening, approving, or reviewing
authority with respect to such authority’s judicial acts
or the exercise of profession judgment by trial counsel
or defense counsel.
Manual for Military Commissions, Rule for
Military Commission 201(b)(3)(A) (2007) states:
Requisites for military commission jurisdiction. …
The military commission must be convened by an
official empowered to convene it.
Manual for Military Commissions, Rule for
Military Commission 407 (2007) states:
(a) Disposition. When in receipt of charges, the
convening authority may:
(1) Dismiss any charges;
(2) Dismiss any specification;
(3) Subject to R.M.C. 601(d), refer any or all
charges to a military commission.

124a
(b) National security matters. When in receipt of
charges the trial of which the convening authority
finds would probably be inimical to the prosecution of
a war or harmful to national security, that convening
authority, unless otherwise prescribed by regulations
of the Secretary of Defense, and after appropriate
consultation with the Office of the Director of
National Intelligence, shall determine whether trial
is warranted and, if so, whether the security
considerations involved are paramount to a trial. As
the convening authority finds appropriate, he may
dismiss the charges, or authorize trial of them.
Manual for Military Commissions, Rule for
Military Commission 501(b) (2007) states:
Counsel in a military commission. Military trial
and defense counsel shall be detailed to military
commissions by the Chief Prosecutor and Chief
Defense Counsel, respectively. Assistant trial and
associate or assistant defense counsel may also be
detailed. Civilian trial counsel may be detailed by the
Chief Prosecutor, with the approval of the convening
authority and, if such counsel are employed by
another government agency, with the approval of the
head of that agency. Should an accused, pursuant to
his request, be deemed competent to represent
himself, detailed defense counsel shall serve as
standby counsel.
Manual for Military Commissions, Rule for
Military Commission 502(a)(1) (2007) states:
The members detailed to a military commission
shall be those active duty commissioned officers, who
in the opinion of the convening authority are best

125a
qualified for the duty by reason of their age,
education, training, experience, length of service, and
judicial temperament. No member of an armed force
is eligible to serve as a member of a military
commission when such member is the accuser or a
witness for the prosecution or has acted as an
investigator or counsel in the same case.
Manual for Military Commissions, Rule for
Military Commission 503(a) (2007) states:
The convening authority shall detail active duty
commissioned officers as members and alternate
members for trials by military commission. Each of
the military departments shall nominate officers in
the number and grades requested by the convening
authority, who meet the qualifications of 10 U.S.C. §
825 (Article 25 of the Code). The convening authority
shall select from the lists of available officers those
who are best qualified for the duty by reason of age,
education, training, experience, length of service, and
judicial temperament.
Manual for Military Commissions, Rule for
Military Commission 503(b)(2) (2007) states:
The Convening Authority shall select a military
judge from the pool described in subsection (1) to
serve as the Chief Judge of the Military Commissions
Trial Judiciary. The Chief Trial Judge shall have
extensive experience as a military judge certified to
be qualified for duty as a military judge in general
courts-martial and shall be currently appointed in the
grade of colonel or captain. If the officer selected is not
currently serving on active duty, but consents to the

126a
selection, he or she shall be ordered to active duty for
this purpose, in accordance with applicable service
regulations, for a period not to exceed three years.
Manual for Military Commissions, Rule for
Military Commission 504(a) (2007) states:
A military commission is created by a convening
order of the convening authority.
Manual for Military Commissions, Rule for
Military Commission 504(b) (2007) states:
A military commission may be convened by the
Secretary of Defense or persons occupying positions
designated as a convening authority by the Secretary
of Defense. The power to convene military
commissions may not be delegated.
Manual for Military Commissions, Rule for
Military Commission 504(e) (2007) states:
The convening authority shall ensure that an
appropriate location and facilities for military
commissions are provided.
Manual for Military Commissions, Rule for
Military Commission 505(c) (2007) states:
Changes of members.
(1) Before assembly. Before the military
commission is assembled, the convening authority
may change the members of the military commission
without showing cause.
(2) After assembly. After assembly no member may
be excused, except:

127a
(A) By the convening authority for good cause
shown on the record;
(B) By the military judge for good cause shown on
the record; or
(C) As a result of challenge.
(3) New members. New members may be detailed
after assembly only when, as a result of excusals
under subsection (c)(2) of this rule, the number of
members of the commission is reduced below a
quorum.
Manual for Military Commissions, Rule for
Military Commission 601(a) (2007) states:
Referral is the order of a convening authority that
charges against an accused will be tried by a specified
military commission.
Discussion. Referral of charges requires three
elements: a convening authority who is authorized to
convene the military commission and is not
disqualified (see R.M.C. 601(b) and (c)); sworn
charges that have been received by the convening
authority for disposition (see R.M.C. 307); and a
military commission convened by that convening
authority or a predecessor. If trial would be
warranted but would be detrimental to the
prosecution of a war or inimical to national security,
see R.M.C. 407(b).
Manual for Military Commissions, Rule for
Military Commission 601(b) (2007) states:

128a
Who may refer. The Secretary of Defense or a
designated convening authority may refer charges to
a military commission.
Manual for Military Commissions, Rule for
Military Commission 601(e)(2) (2007) states:
How charges shall be referred.
(1) Order, instructions. Referral shall be by the
personal order of the convening authority. The
convening authority may include proper instructions
in the order.
Discussion. Referral is ordinarily evidenced by an
indorsement to the charging document. The signature
may be that of a person acting by the order or
direction of the convening authority. In such a case,
the signature element must reflect the signer’s
authority. The convening authority may instruct that
the charges against the accused be tried with certain
other charges against the accused. (See subsection (2)
below.) The convening authority may instruct that
charges against one accused be referred for joint or
common trial with another accused. (See subsection
(3) below.) Capital offenses may be referred as noncapital. Any special instructions must be stated in the
referral indorsement. When the charges have been
referred to a military commission, the indorsed
charge sheet and allied papers should be promptly
transmitted to the trial counsel.
(2) Joinder of offenses. In the discretion of the
convening authority, two or more offenses charged
against an accused may be referred to the same
military commission for trial, whether serious or
minor offenses or both, regardless whether related.

129a
Additional charges may be joined with other charges
for a single trial at any time before arraignment if all
necessary procedural requirements concerning
additional charges have been complied with. After
arraignment of the accused upon charges, no
additional charges may be referred to the same trial
without consent of the accused.
(3) Joinder of accused. Allegations against two or
more accused may be referred for joint trial if the
accused are alleged to have participated in the same
act or transaction or in the same series of acts or
transactions constituting an offense or offenses. Such
accused may be charged in one or more specifications
together or separately, and every accused need not be
charged in each specification. Related allegations
against two or more accused which may be proved by
substantially the same evidence may be referred to a
common trial.
Discussion. A joint offense is one committed by two
or more persons acting together with a common
intent. Joint offenses may be referred for joint trial,
along with all related offenses against each of the
accused. A common trial may be used when the
evidence of several offenses committed by several
accused separately is essentially the same, even
though the offenses were not jointly committed. A
joint offense is one committed by two or more persons
acting together with a common intent. Offenders are
properly joined only if there is a common unlawful
design or purpose. Convening authorities should
consider that joint and common trials may be
complicated by procedural and evidentiary rules.

130a
Manual for Military Commissions, Rule for
Military Commission 604 (2007) states:
(a) Withdrawal. The convening authority may for
any reason cause any charges or specifications to be
withdrawn from a military commission at any time
before findings are announced.
Discussion. Charges which are withdrawn from a
military commission should be dismissed (see R.M.C.
401(b)), unless it is intended to refer them anew
promptly or to forward them to another authority for
disposition. Charges should not be withdrawn from a
military commission arbitrarily or unfairly to an
accused. (See also section (b) of this rule.) Some or all
charges and specifications may be withdrawn. In a
joint or common trial the withdrawal may be limited
to charges against one or some of the accused.
Charges which have been properly referred to a
military commission may be withdrawn only by the
direction of the convening authority or a superior
competent authority in the exercise of that officer’s
independent judgment. When directed to do so by
convening authority or a superior competent
authority, trial counsel may withdraw charges or
specifications by lining out the affected charges or
specifications, renumbering remaining charges or
specifications as necessary, and initialing the
changes. Charges and specifications withdrawn
before commencement of trial will not be brought to
the attention of the members. When charges or
specifications are withdrawn after they have come to
the attention of the members, the military judge must
instruct them that the withdrawn charges or
specifications may not be considered for any reason.

131a
(b) Referral of withdrawn charges. Charges which
have been withdrawn from a military commission
may be referred to another military commission
unless the withdrawal was for an improper reason.
Charges withdrawn after the introduction of evidence
on the general issue of guilt may be referred to
another military commission only if the withdrawal
was necessitated by urgent and unforeseen military
necessity.
Discussion. See also R.M.C. 915 (Mistrial). When
charges which have been withdrawn from a military
commission are referred to another military
commission, the reasons for the withdrawal and later
referral should be included in the record of the later
military commission, if the later referral is more
onerous to the accused. Therefore, if further
prosecution is contemplated at the time of the
withdrawal, the reasons for the withdrawal should be
included in or attached to the record of the earlier
proceeding. Improper reasons for withdrawal include
an intent to interfere with the free exercise by the
accused of any rights to which he may be entitled, or
with the impartiality of a military commission. A
withdrawal is improper if it was not directed
personally and independently by the convening
authority or by a superior competent authority.
Whether the reason for a withdrawal is proper, for
purposes of the propriety of a later referral, depends
in part on the stage in the proceedings at which the
withdrawal takes place. Before arraignment, there
are many reasons for a withdrawal which will not
preclude another referral. These include receipt of
additional charges, absence of the accused,

132a
reconsideration by the convening authority or by a
superior competent authority of the seriousness of the
offenses, questions concerning the mental capacity of
the accused, and routine duty rotation of the
personnel constituting the military commission.
Charges withdrawn after arraignment may be
referred to another military commission under some
circumstances. For example, it is permissible to refer
charges which were withdrawn pursuant to a pretrial
agreement if the accused fails to fulfill the terms of
the agreement (see R.M.C. 705). Charges withdrawn
after some evidence on the general issue of guilty is
introduced may be re-referred only under the narrow
circumstances described in the rule.
Manual for Military Commissions, Rule for
Military Commission 702(b) (2007) states:
A convening authority who has the charges for
disposition or, after referral the military judge may
order that a deposition be taken on request of a party.
Manual for Military Commissions, Rule for
Military Commission 703(d) (2007) states:
Employment of expert witnesses. When the
employment at Government expense of an expert is
considered necessary by a party, the party shall, in
advance of employment of the expert, and with notice
to the opposing party, submit a request to the
convening authority to authorize the employment and
to fix the compensation for the expert. The request
shall include a complete statement of reasons why
employment of the expert is necessary and the
estimated cost of employment. A request denied by
the convening authority may be renewed before the

133a
military judge, who shall determine whether the
testimony of the expert is relevant and necessary,
and, if so, whether the Government has provided or
will provide an adequate substitute. If the military
judge grants a motion for employment of an expert or
finds that the Government is required to provide a
substitute, the proceedings shall be abated if the
Government fails to comply with the ruling. In the
absence of advance authorization, an expert witness
may not be paid fees other than those to which
entitled under paragraph (e)(2)(D) of this rule.
Manual for Military Commissions, Rule for
Military Commission 703(e)(2)(G)(i) (2007)
states:
The military judge or, if there is no military judge,
the convening authority may, in accordance with this
rule, issue a warrant of attachment to compel the
attendance of a witness or production of documents.
Manual for Military Commissions, Rule for
Military Commission 704(c)(1) (2007) states:
The military commission convening authority may
grant immunity to any person subject to the M.C.A.
However, the convening authority may grant
immunity to a person subject to the M.C.A. extending
to a prosecution in a United States District Court only
when specifically authorized to do so by the Attorney
General of the United States or other authority
designated under 18 U.S.C. § 6004.

134a
Manual for Military Commissions, Rule for
Military Commission 705(a) (2007) states:
Subject to such limitations as the Secretary may
prescribe, an accused and the convening authority
may enter into a pretrial agreement in accordance
with this rule. All of the terms of the agreement must
be contained in the agreement and must be in writing.
Discussion. The authority of convening authorities
to refer cases to trial and approve pretrial agreements
extends only to trials by military commission. To
ensure that such actions do not preclude appropriate
action by Federal civilian authorities in cases likely to
be prosecuted in the United States district courts,
convening authorities shall ensure that appropriate
consultation
under
the
“Memorandum
of
Understanding Between the Departments of Justice
and Defense Relating to the Investigation and
Prosecution of Crimes Over Which the Two
Departments Have Concurrent Jurisdiction ” (see
Manual for Courts-Martial app. 3) has taken place
prior to trial by military commission or approval of a
pretrial agreement in cases where such consultation
is required.
Manual for Military Commissions, Rule for
Military Commission 705(d)(3) (2007) states:
The convening authority may either accept or
reject an offer of the accused to enter into a pretrial
agreement or may propose by counteroffer any terms
or conditions not prohibited by law or public policy.
The decision whether to accept or reject an offer is
within the sole discretion of the convening authority.
When the convening authority has accepted a pretrial

135a
agreement, the agreement shall be signed by the
convening authority or by a person, such as the legal
advisor, who has been authorized by the convening
authority to sign.
Discussion. The convening authority should
consult with the legal advisor before acting on an offer
to enter into a pretrial agreement.
Manual for Military Commissions, Rule for
Military Commission 706(b) (2007) states:
(1) Before referral. Before referral of charges, an
inquiry into the mental capacity or mental
responsibility of the accused may be ordered by the
convening authority before whom the charges are
pending for disposition.
(2) After referral. After referral of charges, an
inquiry into the mental capacity or mental
responsibility of the accused may be ordered by the
military judge. The convening authority may order
such an inquiry after referral of charges but before
beginning of the first session of the military
commission (including any R.M.C. 803 session) when
the military judge is not reasonably available. The
military judge may order a mental examination of the
accused regardless of any earlier determination by
the convening authority.
Manual for Military Commissions, Rule for
Military Commission 809(d) (2007) states:
A record of the contempt proceedings shall be part
of the record of the trial of the military commission
during which it occurred. If the person was held in
contempt, then a separate record of the contempt

136a
proceedings shall be prepared and forwarded to the
convening authority for review. The convening
authority may approve or disapprove all or part of the
sentence. The action of the convening authority is not
subject to further review or appeal.
Manual for Military Commissions, Rule for
Military Commission 809(e) (2007) states:
A sentence of confinement pursuant to a finding of
contempt shall begin to run when it is adjudged
unless deferred, suspended, or disapproved by the
convening authority. The place of confinement for a
civilian or military person who is held in contempt
and is to be punished by confinement shall be
designated by the convening authority. A fine does not
become effective until ordered executed by the
convening authority. The military judge may delay
announcing the sentence after a finding of contempt
to permit the person involved to continue to
participate in the proceedings.
Manual for Military Commissions, Rule for
Military Commission 810(a)(4) (2007) states:
[Rehearings] may be ordered in the sole discretion
of the convening authority.
Manual for Military Commissions, Rule for
Military Commission 905(j) (2007) states:
Except as otherwise provided in this Manual, any
matters which may be resolved upon motion without
trial of the general issue of guilt may be submitted by
a party to the convening authority before trial for
decision. Submission of such matter to the convening

137a
authority is not, except as otherwise provided in this
Manual, required, and is, in any event, without
prejudice to the renewal of the issue by timely motion
before the military judge.
Manual for Military Commissions, Rule for
Military Commission 1009(d) (2007) states:
When a sentence adjudged by the military
commission is ambiguous, the convening authority
may return the matter to the military commission for
clarification. When a sentence adjudged by the
military commission is apparently illegal, the
convening authority may return the matter to the
military commission for reconsideration or may
approve a sentence no more severe than the legal,
unambiguous portions of the adjudged sentence.
Manual for Military Commissions, Rule for
Military Commission 1101(c)(2)(A) (2007) states:
The convening authority [may defer the execution
of the sentence], if at the time of deferment the
accused is subject to the military commission
jurisdiction of the convening authority
Manual for Military Commissions, Rule for
Military Commission 1102(a) (2007) states:
Post-trial sessions may be proceedings in revision
or R.M.C. 803 sessions. Such sessions may be directed
by the military judge or the convening authority in
accordance with this rule.
Manual for Military Commissions, Rule for
Military Commission 1107 (2007) states:

138a
(a) Who may take action. The convening authority
shall take action on the sentence and, in the
discretion of the convening authority, the findings,
unless it is impracticable. If it is impracticable for the
convening authority to act, the convening authority
shall, forward the case to an official designated by the
Secretary of Defense for action under this rule.
(b) General considerations.
(1) Discretion of convening authority. The action
to be taken on the findings and sentence is within the
sole discretion of the convening authority.
Determining what action to take on the findings and
sentence of a military commission is a matter of
prerogative. The convening authority is not required
to review the case for legal errors or for factual
sufficiency.
(2) When action may be taken. The convening
authority may take action only after the applicable
time periods under R.M.C. 1105(b) have expired or
the accused has waived the right to present matters
under R.M.C. 1105(d), whichever is earlier, subject to
regulations of the Secretary concerned.
(3) Matters considered.
(A) Required matters. Before taking action, the
convening authority shall
consider:
(i) The result of trial;
(ii) The recommendation of the legal advisor under
R.M.C. 1106, if applicable; and
(iii) Any matters submitted by the accused under
R.M.C. 1105 or, if applicable, R.M.C. 1106(e).

139a
(B) Additional matters. Before taking action the
convening authority may consider:
(i) The record of trial;
(ii) Any relevant records pertaining to the accused;
and
(iii) Such other matters as the convening authority
deems appropriate.
However, if the convening authority considers
matters adverse to the accused from outside the
record, with knowledge of which the accused is not
chargeable, the accused shall be notified and given an
opportunity to rebut.
(4) When proceedings resulted in finding of not
guilty or not guilty only by reason of lack of mental
responsibility, or there was a ruling amounting to a
finding of not guilty. The convening authority shall
not take action disapproving a finding of not guilty, a
finding of not guilty only by reason of lack of mental
responsibility, or a ruling amounting to a finding of
not guilty. When an accused is found not guilty only
by reason of lack of mental responsibility, the
convening authority, however, may commit the
accused to a suitable facility or otherwise make
provisions for appropriate treatment of the accused,
pending a hearing and disposition in accordance with
R.M.C. 1102A.
(5) Action when accused lacks mental capacity. The
convening authority may not approve a sentence
while the accused lacks mental capacity to
understand and to conduct or cooperate intelligently
in the post-trial proceedings. In the absence of
substantial evidence to the contrary, the accused is
presumed to have the capacity to understand and to

140a
conduct or cooperate intelligently in the post-trial
proceedings. If a substantial question is raised as to
the requisite mental capacity of the accused, the
convening authority may direct an examination of the
accused in accordance with R.M.C. 706 before
deciding whether the accused lacks mental capacity,
but the examination may be limited to determining
the accused’s present capacity to understand and
cooperate in the post-trial proceedings. The convening
authority may approve the sentence unless it is
established, by a preponderance of the evidence—
including matters outside the record of trial—that the
accused does not have the requisite mental capacity.
Nothing in this subsection shall prohibit the
convening authority from disapproving the findings of
guilty and sentence.
(c) Action on findings. Action on the findings is not
required. However, the convening authority may, in
the convening authority’s sole discretion:
(1) Change a finding of guilty to a charge or
specification to a finding of guilty to an offense that is
a lesser included offense of the offense stated in the
charge or specification; or
(2) Set aside any finding of guilty and—
(A) Dismiss the specification and, if appropriate,
the charge, or
(B) Direct a rehearing in accordance with section
(e) of this rule.
Discussion. The convening authority may for any
reason or no reason disapprove a finding of guilty or
approve a finding of guilty only of a lesser offense.
However, see section (e) of this rule if a rehearing is
ordered. The convening authority is not required to

141a
review the findings for legal or factual sufficiency and
is not required to explain a decision to order or not to
order a rehearing, except as provided in section (e) of
this rule. The power to order a rehearing, or to take
other corrective action on the findings, is designed
solely to provide an expeditious means to correct
errors that are identified in the course of exercising
discretion under the rule.
(d) Action on the sentence.
(1) In general. The convening authority may for
any or no reason disapprove a legal sentence in whole
or in part, mitigate the sentence, and change a
punishment to one of a different nature as long as the
severity of the punishment is not increased. The
convening or higher authority may not increase the
punishment imposed by a military commission. The
approval or disapproval shall be explicitly stated.
(2) Determining what sentence should be approved.
The convening authority shall approve that sentence
which is warranted by the circumstances of the
offense and appropriate for the accused. When the
military commission has adjudged a punishment
pursuant to a pretrial agreement, the convening
authority may nevertheless approve a lesser
sentence.
(3) Deferring service of a sentence to confinement.
(A) In a case in which a military commission
sentences an accused referred to in paragraph (B),
below, to confinement, the convening authority may
defer service of a sentence to confinement by a
military commission, without the consent of the
accused, until after the accused has been

142a
permanently released to U.S. custody by a foreign
country.
(B) Paragraph (A) applies to an accused who, while
in custody of a foreign country, is temporarily
returned by that foreign country to the U.S. for trial
by military commission; and after the military
commission is returned to that, or another, foreign
country under the authority of a mutual agreement or
treaty, as the case may be.
(e) Ordering rehearing.
(1) In general. The convening authority may in the
convening authority’s discretion order a rehearing. A
rehearing may be ordered as to some or all offenses of
which findings of guilty were entered and the
sentence, or as to sentence only.
(2) Limitation: Lack of sufficient evidence. A
rehearing may not be ordered as to findings of guilty
when there is a lack of sufficient evidence in the
record to support the findings of guilty of the offense
charged or of any lesser included offense. A rehearing
may be ordered, however, if the proof of guilt
consisted of inadmissible evidence for which there is
available an admissible substitute. A rehearing may
be ordered as to any lesser offense included in an
offense of which the accused was found guilty,
provided there is sufficient evidence in the record to
support the lesser included offense.
(3) Rehearing on sentence only. A rehearing on
sentence only shall be referred to the same type of
military commission that made the original findings,
provided however that the convening authority may
elect to refer to a noncapital military commission the
rehearing on sentence only of a case previously tried

143a
before a capital military commission. This latter
referral precludes death as an authorized
punishment. If the convening authority determines a
rehearing on sentence is impracticable, the convening
authority may approve a sentence of no punishment
without conducting a rehearing.
(f) Contents of action and related matters.
(1) In general. The convening authority shall state
in writing and insert in the record of trial the
convening authority’s decision as to the sentence,
whether any findings of guilty are disapproved, and
orders as to further disposition. The action shall be
signed personally by the convening authority.
(2) Modification of initial action. The convening
authority may recall and modify any action taken by
that convening authority at any time before it has
been published or before the accused has been
officially notified.
(3) Findings of guilty. If any findings of guilty are
disapproved, the action shall so state. If a rehearing
is not ordered, the affected charges and specifications
shall be dismissed by the convening authority in the
action. If a rehearing or other trial is directed, the
reasons for the disapproval shall be set forth in the
action.
(4) Action on sentence.
(A) In general. The action shall state whether the
sentence adjudged by the military commission is
approved. If only part of the sentence is approved, the
action shall state which parts are approved. A
rehearing may not be directed if any sentence is
approved.

144a
(B) Execution; suspension. The action shall
indicate, when appropriate, whether an approved
sentence is to be executed or whether the execution of
all or any part of the sentence is to be suspended. No
reasons need be stated.
(C) Place of confinement. If the convening
authority orders a sentence of confinement into
execution, the convening authority shall designate
the place of confinement in the action, unless
otherwise prescribed by the Secretary of Defense or
the Attorney General of the United States.
(5) Action on rehearing or new or other trial.
(A) Rehearing or other trial. In acting on a
rehearing or other trial the convening authority shall
be subject to the sentence limitations prescribed in
R.M.C. 810(d). Except when a rehearing or other trial
is combined with a trial on additional offenses and
except as otherwise provided in R.M.C. 810(d), if any
part of the original sentence was suspended and the
suspension was not properly vacated before the order
directing the rehearing, the convening authority shall
take the necessary suspension action to prevent an
increase in the same type of punishment as was
previously suspended. The convening authority may
approve a sentence adjudged upon a rehearing or
other trial regardless whether any kind or amount of
the punishment adjudged at the former trial has been
served or executed. However, in computing the term
or amount of punishment to be actually served or
executed under the new sentence, the accused shall
be credited with any kind or amount of the former
sentence included within the new sentence that was
served or executed before the time it was disapproved

145a
or set aside. The convening authority shall, if any part
of a sentence adjudged upon a rehearing or other trial
is approved, direct in the action that any part or
amount of the former sentence served or executed
between the date it was adjudged and the date it was
disapproved or set aside shall be credited to the
accused. If, in the action on the record of a rehearing,
the convening authority disapproves the findings of
guilty of all charges and specifications which were
tried at the former hearing and that part of the
sentence which was based on these findings, the
convening authority shall, unless a further rehearing
is ordered, provide in the action that all rights,
privileges, and property affected by any executed
portion of the sentence adjudged at the former
hearing shall be restored. The convening authority
shall take the same restorative action if a military
commission at a rehearing acquits the accused of all
charges and specifications which were tried at the
former hearing.
(B) New trial. The action of the convening
authority on a new trial shall, insofar as practicable,
conform to the rules prescribed for rehearings and
other trials in paragraph (f)(5)(A) of this rule.
(g) Incomplete, ambiguous, or erroneous action.
When the action of the convening or of a higher
authority is incomplete, ambiguous, or contains
clerical error, the authority who took the incomplete,
ambiguous, or erroneous action may be instructed by
superior authority to withdraw the original action
and substitute a corrected action.
(h) Service on accused. A copy of the convening
authority’s action shall be served on the accused or on

146a
defense counsel. If the action is served on defense
counsel, defense counsel shall, by expeditious means,
provide the accused with a copy.
Manual for Military Commissions, Rule for
Military Commission 1108(b) (2007) states:
Who may suspend and remit. The convening
authority may, after approving the sentence, suspend
the execution of all or any part of the sentence of a
military commission, except for a sentence of death.
The Secretary of Defense may suspend or remit any
part or amount of the unexecuted part of any sentence
other than a sentence approved by the President or a
sentence of confinement for life that has been ordered
executed.
Manual for Military Commissions, Rule for
Military Commission 1210(a) (2007) states:
At any time within two years after approval by the
convening authority of a military commission
sentence, the accused may petition the convening
authority for a new trial on the ground of newly
discovered evidence or fraud on the military
commission. A petition may not be submitted after the
death of the accused. A petition for a new trial of the
facts may not be submitted on the basis of newly
discovered evidence when the accused was found
guilty of the relevant offense pursuant to a guilty
plea.
Manual for Military Commissions, Rule for
Military Commission 1210(e) (2007) states:

147a
The convening authority may consider and grant
a petition for new trial, in his discretion. If the
convening authority declines to consider or grant a
petition for new trial, he shall refer the petition to the
Court of Military Commission Review for action.
Manual for Military Commissions, Military
Commission Rule of Evidence 506(f) (2007)
states:
After referral of charges, if the defense moves for
disclosure of government information for which a
claim of privilege has been made under this rule, the
matter shall be reported to the convening authority.
The convening authority may:
(1) institute action to obtain the information for
use by the military judge in making a determination
under section (i);
(2) dismiss the charges;
(3) dismiss the charges or specifications or both to
which the information relates; or
(4) take other action as may be required in the
interests of justice. If, after a reasonable period of
time, the information is not provided to the military
judge, the military judge shall dismiss the charges or
specifications or both to which the information
relates.

